                                   SPEe3Jk Ww'ARNIN&




!~~~~~~~~~§E~~i~n~fo~rm~ation                      be~~~~~~~~~~~a~~:
Section                                  and section
provide                                   that may
                                                                          lation

This document contains information provided as a nonaudit service.
performed was
Standards.    not done
           However,      in accordance
                      before               Ge~eir~a~'~'Yr:1~~~~~~~i~~~1
                                       withthe
                             we performed
would not impair our independence to perform audits,
engagements, or any other future or ongoing reviews of
Additional Information and Copies
To obtain additional copies of thi s report, contact the Secondary Reports Distrib ution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the OffICe of the Deputy lnspector General for
Auditing by phone (703) 604-9 142 (DSN 6M-9142), by fax (703) 604-8932, or by mail:

                       OD IG-AUD (ATTN : Audit Suggestio ns)
                       Department of Defens~ Inspector General
                       400 Anny Navy Drive (Room 801)
                       Arlington, V A 22202-4704


 hn
 I IV
                                   S!ndwrillel'lcomplaintslCX 0!Iertse Hotline, Th! Pentaglll\ washington. DC 20301 ·1900
                                   Phone: fOO.424.9098 e--maiI: hodinetIdodigni www~


Acronyms and Abbreviat ions
AFFARS                         Ai r Force Federal Acqui sition Regulation Supplement
APU                            Auxiliary Power Unit
BCA                            Business Case Analys is
BRAC                           Base Realignment and Closure
C IP                           Component Improvement Program
CONes                          Continenta l Un ited States
C PFH                          Cost-Per-Flight-Hour
CWT                            Customer Wai l Time
DFARS                          Defense Federal Acquisition Regulation Supp lement
DLA                            Defense Logistics Agency
DLR                            Depot-Level Repairable
FAR                            Federal Acquisition Regulation
GAO                            Government Accountabi lity On-ice
GCU                            Generator Co ntrol Unit
NSN                            National Stock NlIIllber
OCM                            On-Condition Maintenance
OC01,1)S                       Outside the Continental United States
OIG                            Office of In spector General
PBL                            Performance-Based Logistics
PNM                            Price Negotiation Memorandum
PWS                            Performance Work Statement
RSP                            Readiness Spares Packages
SPE                            Seni or Procurement Executive
SPLS                           Secondary Power Log istics So lution
U.s.c.                         United States Code
WF HBI                         Weighted Flight Hours Between Installations



                              FOR OFFlC I ,~l USE ONlY
                                  INSPECTOR GENERAL 

                                  OEPAAlM ENT OF DEFENSE 

                                    400 ARMY NAVY DR IVE 

                              ARLINGTON, VIRGINIA 22202-4704 

                                                                                 May2 1,20 10

MEMORANDUM FOR UNDER SECRET MY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               COMMAND FR. AIR FORCE GLOBA L LOr. I ~TI CS
                 SUPPORT CENTER

SUBJECT: Report on Air Force Secondary Power Logistics Solution Con tract
         (Reporl No. 0·20 10·063)

We are providing this report as a oonaudit service fo r your review and comment. This
analysis discusses issues regarding the lise of perfonnance-based logistics support
strategies and the management orDOD inventory . We considered management
conuuents on a draft report when preparing the final report .

DOD Directive 7650.3 requires that all reco mmendations be resolved promptly.
Comments from Ihe Principal Deputy Assistant Secretary of Defense for Logistics and
Materiel Readiness; the Associate Deplity Assistant Secretary of the Air Force
(C:ontracling) ; and the Vice Comm>lnder. Air Force Gloh:ll Logistics SUppOT1 ("ent er were
not fu lly responsive. Therefore, we request additional comments from the Director,
Defense Procurement and Acquisition Policy and the Commander, Ajr Force 74Sth
Supply Chain Group on Recommendations A.2. B.i .h. C.I, C.2, E. I .a, E.2.a, and F.3 by
June 21. 20 10.

If possib le, send a .pdf fi le containing JOur comments to audacm@dodig.mil. Copies of
your comments must have the actua l signature oC the authorizing official for your
organization. We are unable to accepllhe ISigned! symbo l in place of the actual
signature. If you arrange to send classified comment s electrOlucally, you must send them
over the SECRET lnternet Prolocol Router Network (S IPRNET).

                             ; e'<Iend"d to the staff. Please di rect quest ions to me at _




                                                Richart..! 8 . Jolh tle
                                               A s~islant Inspector General
                                               Acq uisi tion and Contract Management
cc: 

Assistan t Secretary of the Air Force (Acquisi lion) 

Di rector, Defense Logistics Agency 


                                   SPEc rAL WAMINC
                 ntain s contractor information that may be company con              r
proprie t:lr')" Section         . e 18, United Stntcs           cc IOU 423, title 4 1,
United States Code, provid e                         r (b e uo a utb orlzed disclos ure of
co m a n '            or proprietary infor OlatiOI) . ou                 uard th is report
in accordao ce with DOD Regul ation S200.1-R.




                               FOR OFI'ICIAL USE ONLY
 Repon No. D-20 I0-063 (Project No. D2009-DOOOCH-0223.000)                     May 21. 2010

               Results in Brief: Analysis of Air Force
               Secondary Power Logistics Solution Contract

                                                          of on-condition maintenance than depot overhau l,
What We Did
                                                          which positi vely impacts costs and availability but
Our objective "..-as to evaluate the data used in the     may negatively impact reliability. The Air Force
business case to support' the best value decision to      expects to obtain similar savi ngs fro m the
award the Secondary Power Logisti cs Soluti on            Increment 2 (F-15) award . However, we
(SPLS) contract. We al so evaluated a                                        SPLS contract cou ld cost _
congress ional inquiry on the consolidation of                             more than the stanis quo (I ssue E).
SPLS requirements recei ved during our review.
                                                          The Air Force Senior Procurement Execut ive has
What We Found                                             not yet determined that the consolidat ion of
The Ai r Force did not adequately address Defense         requirements for the SP LS c.ontract was nec.essary
Logistics Agency (OLA) consumable item                    and justified (I ssue F). Please see Append ix B to
inventory. After we infonned the Air Force and            the report for more details on eaeh issue .
DLA, they agreed to drawdown $5 1. 1 mi ll ion of
inventory for the F· 15 secondary power system            What We Recommend
and are addressing S 19 million of consumables               • 	 The Air Force lise DLA assets for the
inventory for the C-1 30 (Issue A).                              C- 130 and any other spirals/increments.
                                                             • 	 Congress be notified of the SPLS strategy
The Air Force did not comply with lega l                         and that DOD issue implementing guidance
requirements relating to prime vendor contracts for              on prime vendor COnlracts.
depot-level mai ntenance and repair because there
                                                             • 	 The Air Force periodicaJly obtai n certi fied
is no DOD implementing guidance. and the SPLS                    cost or pricing data and renegOliale prices.
contract is not consistent with Base Realib'rflment
                                                             • 	 Close ly monitor the on-condition
and Closure (BRAe) recommendations to transfer
                                                                 maintenance philosophy to detennine its
procurement management and di stribution
                                                                 impact on reliability.
fun ctions to DLA (Issue B).
                                                             • 	 Update status quo calculations to include
DOD availability for C- 130 and F-15 Depot-l evel                FY 2009 historical data before detemlining
Repairables (DLR) has been unsatisfactory. and                   ifSPLS contract is cost-effective.
the SPLS co ntract requires sign ificantly improved          • 	 The Ai r Force Senior Proc urement
availabili ty starting in contract yea r 3. However,             Ex.eclitive determine whether the
the goal of reducing customer wa it time was not                 consolidati on of requirements for the SPLS
achi eved and contract merri es are not consistent               contract was nec essary and justified.
with 000 standards (Issue C). Also, the contract             • 	 DOD and the Air Force review and clari fy
did not obtain signifi can t reliabi lity improvements,          or correct policies related to conso lidation.
and the Air Force continues to fu nd improvements
                                                          Management Comments and Our
outside of th e contract, whi ch is contrary to the
perfomlan ce-based logi sti cs concept (Issue D).         Response
                                                          Comments generally were respons ive, but not all
Sav ings are difficult to calcula te. The Air Force       recommendations were resolved. We request
claimed savings o ~ over the status                       additional comments from the Director, Defense
quo for Increm ent I of the SP LS contract, but our       Procurement and Acquisition Poli cy; and
calc ulations ranged fro m a savings ofS7 .0 million      Commander, Air Force 748 1h Supply Cha in
(0 a price increase of$ 13.9 million from FY 2005         Management GrouP. by June 21 , 20 10. See the
to 2007. The SPLS contract relies more on the use         recommendations table on the back of this page.
                                         FOR OFFIC IAL USE ONLY 

 Repon No. D-20 10-063 (Project No . D2009-DOOOC H-0223.000)                       May 2 1. 20 10

 Recommendations Table
            Manage ment                       Recolllm end ations          No Additional Co mments
IDirector. Defense Procurement               Requiring Comment                    Required 


 ~nd   Acqlli"ition Policy
                                      I   B. I .band F.3 

                                                                       I
 Director, Defense Logistics                                           IB.2 .a and B.2.b
 Agency                             I
 Air Force Deputy Assistant
 Secretary for Contrac ting 
       I                                  IB.1.a and F.2 





                                                                       r
                                 -
 Assistant Deputy Under Secretary 

 of Defense for Maintenance 

 Policy and Plans
 Commander, Air Force 74 ~m
                                    I   A.2, C. I, C.2, E. J. a, and    A. J.a , A. J.b, c.J, )). I, )).2,
 Supply Chain Management                E.2.a                           D.3, E. J.b, E.2.b, and F. I
 Group 

 Deputy Commander, Defense
 Supp ly Center, Richmond, 

                                                                       IA.I..,   A. J.b, and A.2 


 Virgin ia                            I
 Please provide co mm ents by June 2 1, 2010.




                                     fO R O FFIC IAL USE O NLY
                                                    II
Table of Contents 

Introduction
       Objectives
       Background

Results Summary, M,anagement Comments on the Report, and Our Response                   3

Issue A. DLA Impact ­ Sa les and Inventory, Recommendations, Management
Co mments, and Our Response                                                             4

Iss ue B. I. Statutory Issu es ­ Prime Vendor Co nl'racts for Depot-Level
Maintenance and Repair, Recommendations, Management Comments,
and Our Response                                                                        6

Issue B.2.. Statutory Iss ues ­ Base Realig.ment and C los ure 200S,
Recommendations, Management Co mments, and Our Response                                 8

Issue C. Availability ­ On-Time Delivery of Depot-Level Rel)airables,
Kecommcndations, Management Comments, and Our Res ponse                                 10

Issue D. Reliability Improvements, Recommendation s, Management
Co mm e nts, and Our Rf's pons('                                                        12

Isslle E.I. SPLS Costs - SPLS Increment 1 Cost Savings, Recommendations,
Management Co mments, and Our Response                                                  14

Issue E.2. SPLS Cost - SPLS Increment 2 Calc ulated Cost Savings,
Recommendations, Management Co mments, and Our Response                                 16

Issue F. Congress ional Inquiry - Bundling, Recomm endations, Management
Co mm ents, and Our Response                                                            18

Appendices

       A. Scope and Methodo logy                                                        21
       8. Supplemental Infomlatioll to Ana lys is of Air Force
       Secondary Power Logisti cs Solution Contract                         (Separate File)

Management Co mments

       Assistant Secretary of Defense for Logistics and Materiel Readiness              23
       Air Force Deputy Assistanl Secretary for Contracting                             25
       Air Force Global Log istics Support Center                                       29
       Defense Supply Center, Richmond, Virginia                                        43


                             FOR OFFlCI.~l USE ONlY
Introduction
Objectives
QUI objecti ve was (u eva luate the data used in the l..lUsilless cast: anal ys is (Be A) to
suppo rt the best value deci sion to award the Secondary Power Logistics Solution (S PLS)
contract to Honeywe ll 11lternational Inc. (Honeywe ll). Specificall y, we evaluated Ihe
accuracy of the baseline data related to availabili ty, reliabi li ty, and cos t; detennined
w heth er the Air Force adequately considered appropriate statutory and regularoty issues;
and assessed the overall impact on the Defense Logistics Agency (OLA) and DOD
suppl y system . During the review, we recei\'e d a congress ional inquiry re lat ing to the
consol idation ofSPLS requirements. See Appendix A for a di scussion of tile scope and
methodology.

Background
During a Lean Six Sigma project (D2009-DOOOCH-0002 .000) des igned to fe-establish
baseline costs on the DLAlHo neywe ll long-twn contracts and to attain lower pri ces for
Ho neywe ll parts, I we discovered that DLA had more than 4 years of in ve ntory
(S I39.4 million) in relatio n to annual requisitions ($33.9 million). The excess in ventory
related primarily to consumable items llsed by Hill Air Force Base (DOD Activity
Address Code FB2029).

Demand Decline and DOD Inventory
We visited Hill Air Force Base to assess the reasons for the decrease in demand for DLA­
managed consumable items and found that the Air Force had reduced its requi sitions for
consumable items that were purchased w ith the SPLS contract The S PLS contract is a
sole-soUlce, perrolilialice-based lugis tics ( fi xed-pI ice, puwet -by-tlle-Oig llt-huUl) CUlltlac t
with Ho neywell . The auxili ary power units (A PUs) for the B-2 and C-130 aircraft and
ground carts had already Iransitioned to the SPLS contraci (Spira l I, Increment I), and
the F-15 secondary power systems (Spiral 1, Increment 2) were scheduled to transition in
2009 (110W 20 I 0).

In addition, a significant shortage of bearings caused Ihe Ai r Force to reduce requi sitions
of consumable items used on F-15 secondary power systems. One of the reasons DLA
was unable to suppl y bearings to the Air Force was that Honeywell was unable to obtain
bearings from its manufacturers and had sigl1ificantl y increased delivery times. For
example, DLA had 110 inventory for National Stock Number (NSN) 3110-00-554-8388, a
cylindri ca l ro ller bearing, even though 2,766 were on order. Starting with order




I The initiative to re-baseli ne priccs on thc DLAlHoncywel llong-tcnn contracts rcduccd prices by :1bout
$9.5 million or 9.4 percent (based on 3-year demand of $ 100.8 million) and will be addressed in a separate
report.

                                   fOR OfFICIAL USE ONLY
                                             1
2090 January 20, 2007, to order 4016 August 3, 2007, Honeywell had amended contract
delivery days from about 205 days to between 597 and 759 days.

The Air Force had onl y limited plans to address DLA consumable item inventory and in
fac t, the DLAlA ir Force co ll aborat ive forecaiting continued to assume DLA wou ld
suppon the APUs.

SPLS Strategy
On August 30, 2007, Hill Air Force Base awarded Increment 1 of the SPLS contract with
an estimated val ue ofaboul $370 mi ll ion over 10 years to Honeywe lL The SPLS contract
provides logi stics service and depot maintenance support for Hill Air Force Base and,
according to Honeywe ll , should reduce maintenance costs by 10 percent. During the fi rst
increment of the contract, Honeywell will reportedly upgrade APUs and provide ground
cart support and supply chain management services for the B-2 and C- J30 aircraft.

2.!!.~:!I!!~ snllrals and increments of the S
                C-5 Ga laxy
                   B                                                                 ~
                                                                      strategy   also
include agreements with other original equipment manufacturers, such as Hamilton
Sundstrand.

Additional Benefits Anticipated by the Air Force
Under the SPLS contract. Honeywe ll has embedded engi neering staffon aj ust-in-time
basis for support to increase production, resolve current problems, and reduce cycle time.




                              FOR OFFIC IAL USE ONLV
                                                ,

Results Summary
The SPLS strategy initially did not full y consider th e impact 011 DLA consumable
inventory, did not comply with statutory requirements (b undlingl [Section 2382, title 10,
United Stat.es Code, "Consolidation OfCOJ1lBCt Requiremen ts: Po li cy and Res trictions]
and prime vendor contracts for depot- Ieve!maintenance and repair [Section 346 o f Pub lic
Law 105-261 , lhe " Strom Thurmond National Defense Authori zation Act for Fiscal Year
1999," October 17, 1998, as amended by Sectio n 336 of Publi c Law 106-65 , October 5,
1999, added as a note to Section 2464 , title 10, United Sta tes Code]3), and was not
consistent with Base Realignment and C losure (BRA e) 2005 recommendat ions. OUf
analysis shows that while the contract requirements do provide for better availability, any
reliabi lity improvements and lower costs are questionable. The following sections
contain details on the issues and o ur reeom n--endati ons.

                      •   Iss ue A -   DLA Impae: - Sa les and Inventory
                      •   Iss ue B -   Starutory Issues
                      •   Iss ue C -   Availabi lity
                      •   Issue D -    Reli abili ty Improve ments
                      •   Iss ue E -   S PLS Costs
                      •   Issue F -    Congressional Inquiry - Bundling

See Appendix B for more details on each issue.

Management Comments on the Report and Our
Response
Assistant Secretary of Defense for Logistics and Materiel
Readiness Comments
The Princ.ipal Deputy Assistant Sec.relary of Defe.use. for Logistics and Mate.riel
Readiness s tated that although he partiall y agrees with the findings, he is concerned that
the general tone of the report appears to discourage, rather than support, current DOD
policy of adopting innovative sustainment strat egies , particularly PBL.

Our Response
We fully support innovative susta inment strategies that effecti vely decrease s ustainment
costs, properly defin e and measure perfornlance metrics, and show improvements in
perfonnanee, and lowe r costs across the total life cycl e. However, as s hown in the report,
we question whether the Ai r Force SPLS stratt;:h'Y will result in lower costs and achieve
reliabi lity improvements. Further, the SPLS contract metri cs for availabi lity defin es
acceptable deli very below current DOD requirement s for hi gh-priority requisitions and
does not fu ll y measure the total customer wait time (CWT).



1 The United States Code and the Federal Acquisition Regulation define bundling as consolidating two or 

more requirements for supplies or services. previollsly provided or perfonncd under sepllnlte smallcr 

COlllraclS. into a solicitation for a si ngle contract. 

J TIle draft report referred to this legislation as UIC Strom Thunnond Act. 


                                  FOR OF FI C IAb US!; ONLY
                                                    )
Issue A. DLA Impact - Sales and Inventory
The SPLS philosophy moves supp ly operations and material management functions for
co nsumable items from DLA to the private sector (Honeywe ll ) with DLA becomi ng the
second source of supply for consumable items used 011 secondary power systems at Hill
Air Force Base. While the Air Force had addressed DLA inventory drawdown for a
limited number of conswllable items used on the a irc raft secondary power systems, we
identified $60-$80 mi llion of consumab le items used on the secondary power systems
that had not been adequate ly addressed. After briefing the Air Force and DLA on the
inventory issue (we also briefed the Director. Defense Procurement and Acquisiti on
Policy), the Air Force and DLA took a "team deep look" al F-15 consumab le ilem
inventory and agreed 10:

   • 	 use $51 . 1 million of DLA assets (as a first source of supply) throughout the life of
       Ihe contract or until DLA assets are e)(hausted for 507 drawdown NSNs (95 ,638
       lotal items) used on the F- 15 ai rcraft at the DLA Standard Uni t Price,
   • 	 enforce drawdowl1 requirements through contrac t language with periodi c metric
       reviews, and
   • 	 assess whether the same methodology can be lIsed fo r excess DLA assets relating
       to the C-130 aircraft already on contract with Honeywel l under Increment I.

Although we be lieve that contracting out the DLA mission will decrease effective use of
DLA assets, increase excess capacity, and make DLA increasingl y more inefficient; the
Air Force and DLA have agreed on a reasonable drawdown plan for DLA assets.
According to DLA , because the use of perfonnance-based logistics (PBLs) is DOD ' s
preferred method of suppon, the Deputy Commander, Defense Supply Center Richmond ,
believes it would be inappropriate for DLA tCI challenge the Air Force ' s decision . DLA
stated that it is imponan t to gai n info rmation on the Serv ices ' intent so that DLA
personnel can adjust their o rdering accordingly and avo id in vesting in unneeded material.


Recommendations, Management Comments, and Our
Response
A.1. \Ve recommend that the Commander, Air force 748 11• Supply Chain
Management Group, and the Deputy CO lllmander, Defense Supply Center
Richmond:

        a. Use $51.1 million of Defense Logistics Agency assets (as first source of
supp ly) through the life of the contract or until Defense Logistics Agency assets are
exhausled for drawdown F-1 5 items at the Defense Logistics Agency Sia ndard Unit
Price.
        b. Enforce drawdown requirements through contract language with periodic
metric reviews.

Management Actions
The Air Force and DLA agreed and took prompt action to address the inventory issue.
                              FOR OFFICIAL USE ONLY
                                        4
A.2. \ Ve recommend that the Comm ander, Air Force 74S tb Supply C hain
Ma nage ment G roup , and th e Depu ty Co mm ander, Defense Supply Center
Richm ond , follow the sa me methodology to use a bout $35.0 miJli on of Defense
Logistics Age ncy assets fo r C- 130 items and a ny other Secondar y Power Logistics
Solud on spirals and in crements.

Air Force Global Logistics Support Center Comments
The Vice Commander. Air Force Global Logisti cs Support Center, and the Director,
448 1h Suppl y Chain Management Wi ng, agre::d with the illlent of the recommendation.
They agreed that it is best to use excess DLA inventory relmed to the C-1 30. They are
currently in discuss ions with Honeywe ll and DLA to deternline a so lut ion that will
drawdown excess UL A inventory, while also consideri ng Honeywe ll' s contractual
ob ligations to its suppliers.

Defense Supply Center Richmond Comments
The Deputy Commander, Defense Supply Center Richmond, agreed. DlA met with the
Air Force and identified the parts to be used and is curremly negot iating a dollar value.
DLA estimates the va lue of these parts at $25 mill ion fo r a 10-year drawdown plan, but
beca use the contract has been in place for 2 years, DLA estimates an 8-year drawdown
va lue ofS J9 million. The deputy commander stated that the Air Force is asking DLA to
consider foreign military sa les as a potent ia l customer for a "coupl e mill ion doll ars"
worth of parts. Add itionally. according to the deputy commander, the Ai r Force is
concerned that Honeywell has "over proc ured" for the last 2 years of the contract. The
depu ty commander also stated that DLA will insist that the Ai r Force drawdown a
significant amount of inventory. ifn ot all , related to Increment I.

Our Response
The comments are not full y responsive. Although Honeywell' s fiml commitments may
impact the amount of DLA inventory that can be reduced, the Air Force needs to
negotiate an effecti ve dra wdown of DLA assets. The SPLS contract has 7 remai ning
 I-year opti ons that can be exercised. Given the contract term s, it seems unlikely that
Honeywe ll has entered into firm agreements with its suppli ers for the remaining period.
In July 2009, the Deputy Ass istant Sec retary for Contracting, Offi ce of the Assistant
Secretary of the Air Force for Acquisiti on, stated in a dec ision brief for the F-1 5 award
that he wanted the C- 130 inventory resolved before the F-1 5 award . Further, with
increment 3 of the SPLS contrac t add ing A- IO, B- 1, C-5, and E-3 secondary power
systems, clearl y there is adequate leverage and incentive to negotiate a reasonable
drawdown ofC- J30 in ventory for DOD and lhe taxpayers. We request that the Ai r Force
pl ov ide addil iollal COIl Ill It:ntS 0 11 lite fi msl lcpon L!taL addless a reasonable drawdowli pi au
fo r C-130 inventory.




                                  FO R O FFI C IAL USE ONLV 

                                                   5

Issue B.1. Statutory Issues - Prime Vendor
Contracts for Depot-Level Maintenance and
Repair
Secrio n 2464, ritlelO, United States Code ( 10 U.S.c. 2464) note, placed conditi ons on the
expansion of functi ons perfomled under prime vendor contracts for depot-level
maintenance and repair. The law requ ires that Congress be notified 30 days before the
Secretary of Defense or the Secretary of a Military Department enters into a prime vendor
co ntract fo r depot-l eve l maintenance and repair ofa weapons system or other military
equipment.

The Ai r !'oree had not compl ied with 10 U.s.c. 2464 note. The Air ('oree agreed that the
statutory req ui rements applied to the SPLS strategy and was researching how notification
sho uld be made and at what level. The Air Force also stated that there was no Defense
Federal Acqu isition Regulation Supplement (DFARS) guidance that addressed the
requ irements.

Recommendations, Management Comments, and Our
Response
B. La. We recommend that th e Air Force Deputy Assista nt Secretary ror
Contrading comply with the requirements for prime vendor contracts and notify
Co ngress or the Secondary Power Logistics Solution strategy.

Air Force Deputy Assistant Secretary for Contracting Comments
The Air Force Deputy Assistant Secretary for Contracting partia lly agreed. The
Assoc iate Deputy Assistant Secretary stated that when the SPLS contract was awarded in
August 2007. 0 0 0 had not impl emented the requi rements for prime vendor contracts.
The Associate Deputy Assistant Secretary sta ted that it would not be appropriate to apply
the requi rements fo r prime vendor con tracts because the Ai r Force awarded the contract
in 2007. and DO D had not implemented the requirements until February 12, 20 10. The
Air Force did agree that the req uire ments for prime vendor contracts appl ies to the SPLS
strategy but has no plans to noti fy Congress.

Our Response
The Air Force comments are n OI res ponsive. The Ai r Force needs to compl y wilh the law
to noti fy Congress be fore awarding addi tional increments of the SPLS strategy that
contract out depot-leve l ma intenance and repair of the F-1 5. A-I O. B-1 . C-5. and E-3
secondary power systems. We pl an to address the issue to the Director. Defense
Procurement and Acqui si tion Po li cy (see our response to B. l .b).




                              FOR OFFIC IAL USE ONLV 

                                             6

B.t.b. \Ve recommend that the Director, Defense Procurement and Acquisition
Policy, in conjunction with the Ass istant Deputy Under Secretary of Defense
(Maintenance Policy and Programs), develop implementin g guidance to address th e
requirements relatin g to congressional notifi cation before entering into prime
,'endor co ntracts for depot-level maintenance and repair of a weal)ons system or
other military equipment.

Assistant Secretary of Defense for Logistics and Materiel
Readiness Comments
The Principal Deputy Assistant Secretary of Defense for Logistics and Materiel
Readiness partiall y agreed. The Principal Deputy commen ted that he be li eves there is
sufficient implementing guidance to compl y with the requ irements. Further, on
February 12, 20 I0, the Director, Defense Procurement and Acquisiti on Policy. iss ued a
policy memorandum to incorporatc the rcquirements into DFARS.

Our Response
The Principal Deputy Assista nt Secretary of Defense for Logistics and Materi el
Readiness comments are not full y responsive. Although the policy memorandum issued
in response to thi s report is a step in the right direction, we do not agree that sufficient
gu idance exis ts. For in stance , the Air Force infomled us that it does not intend to comply
with the requirements when awa rdin g fu tu re increments of the SPLS contract. Further,
for ongoing projects, the Army also has not complied with the requirements and is
questioning the applicabi li ty of the guidance to its cu rrent support strategies. Therefore,
we request additi onal comme nts in response to the final repon from the Director, Defense
Procurement and Acqui sition Po li cy.




                              FOR OFFICIAb lI5" ONbY
                                        7
Issue B.2. Statutory Issues - Base
Realignment and Closure 2005
The SPLS contract is not consistent with the BRAe recommendations that transfer
procure ment management and re lated s upport function s for depOl~leve l repairab les
( OLRs) and supply. storage, and d istributi on management functions to DLA because the
SPLS contract keeps these function s under Air Force control. In addition; supply,
storage, and distribution fun ctions for consumable items previously managed by DLA
wi ll be fe-aligned to contractor management under Air Force contro l. Consequent ly, the
SPLS con tract and other PBL strategies wi ll impact BRAe sav ings estimates relating to
BRAe Recommendation # 176, "Depot-Level Repairable Procurement Management
Consolidation," and BRAe Recommendation # 177, " Supp ly. Storage. and Distribution
Management Reconfiguration ."

The SPLS strategy and pursuit of similar PBL strategies by the Services wili, over time,
dimini sh the joint opportunities for sav ings relating to conso lidating consumable item and
procurement management of DLRs and consolidating the service suppl y, storage, and
distribution function s. DLA has not addressed the impact that the Air Force SP LS PBL
strategy will have on BRAC recommendations cost and savings estimates. The SPLS
strategy should resolve Air Force concerns about til e BRAe consolidation act ions impact
on readiness and depot func tions to serve tile warfighter, as reported by the Government
Accountabili ty Office (GAO).

Recommendations, Management Comments, and Our
Response
B.2. \ Ve recomme nd Ihatth e Director, Defense Logistics Agency:

         a. Determin e the difference in the valu e of t he d epot-leve l repairables that
th e Ser vices originally plann ed to tra nsfer (procureme nt ma nage ment functi on) t o
the Defense Logistics Agency a nd the current , 'a iu e of the delJot-level repa irables
currently scheduled 10 transfer and d ete rmine the associated impact (Base
Realignment a nd C losure Recomm en dat i()n # 176).

Defense Logistics Agency Comments
Inventory sav ings identified in BRAC Recommendation 176 were based on placing
2 percent of the annua l acqui sition dollar value of consumable and depot-level reparab le
C lass IX materie l on long-term, performance-based contracts for a peri od of
4 consecutive years . Assumed savings come from lowering lead times for those affected
NSNs and, in some in stances, from achievinj!. an opportu nity to receive in ventory directly
from the vendor. DOD envisioned these contracts to be joim enterprises between DLA
and the Serv ices and did not target specific vendors. The Services are not transferring
management of depot-level repairab les to DLA . BRAe Recommendation 176 directs
that procurement of C lass IX materiel be assigned to DLA. Subsequently, the
governance board decided that repai r services and mixed service/materiel contracts were
not intended to be assigned to DLA. The annua l acquisition dollar va lue of Class IX
                              I'OR OI'FICIAb YSI> ONbV
                                          8
materiel for the Air Force as reported in the certified BRAe data ca ll is $1 .6 bil lion. Two
percent of that amouUl adjusted for infl ation is $34.4 million. Annual inventory savings
are expected to average $8.8 mi lli on a year or 0.55 percent of Air Force Class IX annua l
acqui si tion value. The Honeywell SPLS contract wou ld have very minima l, ifany.
impact on the BRAC savings est imates.

Our Response
The comments from DLA are responsive.

         b. Improve the accuracy of its Base and Realignment Closure cost and
savings estimates b)' id entifying th e Service-related inventory that will not be
co nsolidated with the Defense Logistics Agency inventory and exclud e a ny proj ected
sav in gs associated with th e inventory transfer for inventory not being transferred to
Defense Logistics Age ncy (Base Reali gnment and Closure Reco mmendation #177).

Defense Logistics Agency Comments
The inventory savings identified in BRAC Recommendation 177 were based on projected
inventory to be capitalized by DLA from the Navy and Air Force. The Air Force has
projected $ 177.1 mi ll ion of materiel at Ogden Air Logi stics Center to be capitalized by
DLA. The BRAC savings estimates conservatively assume a 25-percent reduction in
inventory or S16.5 million. The reduction occurs when in ventory levels for DLA
worldwide requirements and Ogden Air Logistics Center, Utah. are combined and
co llapsed. There is no reason to believe that the Honeywell SPLS contract would have a
significant effect on the assumptions.

Our Response
The comments from DLA are responsive.




                              FOR OFFICIAL USE ONLY 

                                              9

Issue C. Availability - On-Time Delivery of
Depot-Level Repairables
Government availabi li ty for the C-130 and F· 15 DLR s has been unsati sfactory. We
calculated that C- J30 DLR availabili ty ranged from 39.7 percent in FY 2003 to
68.8 percent in FY 2007, with a spike of79.8 percent in FY 2006 (S PLS Increment
I contract standards) , From FY 2003 to FY 2008, avail abi lity fo r F-1 5 DLRs ranged
from 43.0 to 45.8 percent (also lIsing SPLS Increment I contract standards) wi th a spike
of 54.9 percen t in FY 2007. It sho uld be noted that a world-wide sho rtage of bearings
signifi cantly impacted repairs and avail abi litf and that the Ai r Force acquisiti on plall
reported on-time deli veries of spares at only 58 and 56 percent in FYs 2003 and 2004.
The S PLS contract Increment I requires 90-percent ava il abi li ty starting in year 3 of the
contract, and Honeywell achicvcd availabil ity ratcs of60.3 and 75.9 in thc first 2 contract
years respectively (for the C-1 30). The Air Fo rce established a 90-percent goa l for DLR
availabi li ty in its business case, but the F-15 contract (Increment 2) has not yet been
negotiated.

We fowld that the Air Force SCA goa l to reduce CWT from 4 days to 2 was not achieved
and the ava il ab ility measurements in the SPLS contract were not consistent wi th DOD
Unifornl Material Movement a nd Issue Priority Standards (DOD Standards). We found
that for C WT, the SPLS contract clock starts the first business day (Monday-Friday) after
receipt of the requisition by Ho neywell as opposed to the date the requi sition was issued
for DOD requirements, and that the contract perfonnance work statement was not
consistent with the ava il ability perto rmance requirement. Also, fo r hi gh-priority
req ui sitio ns (1-3), DOD gene ra lly requi red faster delivery than SPLS, while for lower
priority (4-15) req ui siti ons, SPLS requ ired faster de li very . Finally. the max imum
contract penalty for poor perfonnance under lncrement 1 (availability at 80 percent or
lower) is only S1 41 ,825 or less than haifa percent of the annual contrac t va lue of
536.9 million and will provide only limited incenti ve to guarantee adequate performance.

Recommendations, Management Comments, and Our
Response
c.We recommend that the Commander, Air Force 74S 'h Supply Chain
Management Group:

        I. Estab lish procedures to measure customer wait time as defined by the
total elapsed time between iss uance of a customer order and satisfaction of that
order.

Air Force Global Logistics Support Center Comments
The Vice Conunander, Air Force Global Logistics Support Center, and the Director,
44S lh Suppl y C hain Management Wing, abrre~d . The commander stated that the Air
Force will continue to measure customer wa it time from the time a requi sition is
submitted to the time the fi eld acti vity receives a serviceab le asset.
                               FOR OFFICIAL USE ONLV
                                              10
Our Response
The Ai r Force comment's are not full y responsive. The A ir Force had not been measuring
custo mer wait time from the time a requisition was submitted to th e time the fi eld acti vity
received a serviceable asset. The Air Force needs to provide a response to the final report
detailing how it willllleas ure customer wait time from the time a requI sition is submitted
to the time the fi eld activity receives a serviceabl e asset.

        2. Estab lish and track Seco ndary Power Logistics So lution co ntract metrics
for availability (customer wait time) thai are eq ual to or better than DOD Uniform
Ma terial Movement and Issue Priority Standard s.

Air Force Global Logistics suppon Cenrer Commenrs
The Vice Commander, Ai r Force G lobal Logistics Support Center, and the Di rector,
448 th Suppl y Chain Management Wing, agreed. The commander stated that the Air
Force would review Priority 02 and 03 requi siti ons to detennine w hether it is
economi ca ll y justifiable to amend the contract to require deli very w ithin 2 business days
fo r Continental United States requirements or 5 business days for Outside the Continental
United States requirements.

Our Response
The Ai r Force comments are parti all y responsive. We question the use of contract
metrics that are no t equa l to or better than DOD Uni fo rm Materi al Movement and Issue
Priori ty Standards. According ly, we request that the Air Force provide a response to the
fin al repo rt.

        3. ESlab lish cont ra cl incentives or penalties Ihal are sufficie nt 10 ens ure
rcquircd 8\'a il ab ility.


Air Force Global LogistiCS suppon Center Comments
The Vice Commander, Air Force G lobal Logisti cs Support Center, and the Director,
448 th Suppl y Chain Management Wing, agreed. The commander stated that the contract
itself is su ffi cient incent ive for Honeywell to meet contract ava ilabili ty requirements
because of the Air Force's ability to not exer.;ise opti on years if Honeywe ll does nOI meet
co ntractual performance requi rements . As a result, the potentia l penal ty for not meeting
contract performance is the value o f the contrac t.

Our Response
The Air Force comments are responsive.




                               FOR O ....... CIA•.b   US~ O~b\' 

                                                II
Issue D. Reliability Improvements
The S PLS Increment I contract requires only a 60-percent reliability improvement fo r
23.3 percent of the APUs (based on the dollar va lue of the contract) or significantl y less
than th e Air Force business case- goal ofa IOO-percent reliability improvement. Further,
based o n reliabili ty data fro m FY 2006 to FY 2008, we ca lculate that th e baseline fo r the
APUs should have been established at 8 10 Weighted Flight Hours Between Installations
(WFH BI) rather than 642 WFH BI. Consequently, the contractual reli ability
improvements required for Increment 1 amo unt to only a 26.8 percent improvement for
23.3 percent of the items.

In add ition, from 2003 to 2006, the Air Force funded the secondary power system
Compo nent Improvement Program (CIP) projects totaling about $8 milli on with
Honeywe ll that mostly related to the C-5 control system and the F-1 5 central gearbox
clutch a nd brake and generator contro l unit (GCU). From 2007-2009, the Air Force
funded an addi tiona l 55.3 million of design improvements with Honeywe ll , including
;!bollt S27 million of improveme nts for the F- 15 Gell ;!nd more th ;! n $ 1 C) m illi on o f
improvements to the C-5 APU 165- 1 control system. For the F- 15 GCU, the Air Force
plans on fundin g the co mp lete replacement of lhe GCU at a cost ofab ou! $20 milli on
a ft er the In crement 2 contract is awarded. Thi s concept of fundin g maj or component
improvements outside the S PLS contract is contra ry to the performance-based logistics
concept and will be difficult to manage.

Recommendations, Management Comments, and Our
Response
                                                                1h
D. \Ve recommend th a t the Commander, Air Force 748 Supply C hain
Ma nageme nt Group :

          I. Esta blish accurat e reli abili ty baselines from historical data a nd determine
r ea listic improvements that ca n be obtai nfd through negotiations with 31lprOlJriate
in centives a nd penalties.

Air Force Global Logistics Support Center Comments
The Vice Commander. Air Force Global Logisti cs Support Center, and the Director,
448 th Suppl y Chain Management Wi ng, ag re~d that more accurate reli ability base lines
need to be establi shed. The commander stated that the Ai r Force performed a
reva li dation of the data orig inally used (0 develop the baseline to incl ude a longer time
frame that provides a more accurate pi cture and highl ights some errors in this report. The
commander also stated that the cost of changi ng the contract base line will be assessed ,
but the current incent ives and penalties are appropriate.

Our Response
The Ai r Force comments are responsive. However, we are not aware of allY errors in our
repo l1 and we reli ed on the data prov ided by the Air Force to make our ca lculations.

                               FO R OFFIC I"b USE ONbV
                                           12
        2. Dete rmin e whether it is appropriate to fund co mpon enl improveme nt
program replacements/upgrades outside a performan ce-based logistics arrangement
and, if appropriate, determine how the Air Force will account for fa"orable
ava ilability, reliab ility, a nd cost impact on the Second ary Power Logistics Solution
contract.

Air Force Global Logistics Support Center Comments
The Vice Commander, Air Force Globa l Logistics Support Center, and the Director,
448 th Supply Chain Management Wing, agreed. The commander stated that it is
reasonable to assume and expect that Honeywe ll will foclis on improvements that will
have a payback with in the life of the contract and not on those that wou ld extend beyond
the life of the contract. When program improvements would extend beyond the life of
the contract, the Ai r Force would detemline whether it is in its best interest to purs ue
these improvements outside the SPLS contract. If the Air Force does choose to pursue
these improvements, the Ai r Force wou ld ensure that Honeywell does not receive a
financial benefit for efforts undertaken by the Air Force.

Our Response
The Air Force comments are responsive.

      3. Determine whether it is aplJropriate to fund co mponent improvement
program projects (to improve reliabilil)l, not safety) that are scheduled for
performance·based logistics arrangements.

Air Force Global Logistics Support Center Comments
The Vice Commander, Air Force Globa l Logistics Support Center, and the Director,
448 th Supply Chain Manageme nt Wi ng, agreed. The commander stated that Honeywell
is incentivized to make improvements that would lower its costs. The Air Force does not
expect Honeywell to implement improvements that will not lower its costs. For
improvemems that would not lower Honeywe ll ' s cost, the Air Force wou ld detennine if
the improvements are in its best interest and then decide whether to pursue them.
Additionall y, the Air force would ensure that J Joneywell does not benefit financia ll y
from Air Force-fu nded improvemems.

Our Response
The Air Force comments are responsive.




                             FOR OFFICIAL USE ON LV 

                                            13 

Issue E.1. SPLS Costs - SPLS Increment 1
Cost Savings
Detennining whether the Air Force S PLS initiati ve is less expensive than the Sla lUS quo is
difficult, as is detemlining whether negotiated prices for the next 10 years are fai r and
reasonable. In the Increment I (B-2, C-130, and carts) fi nal price negotiation




Exclud ing CIP costs and usi ng the same high- leve l data for FYs 2005, 2006, and 2007;
we calcu lated the IO-year staniS quo costs at $376. 1 million, $355.8 million, and
$355. 1 million, respectively . When compared to the S369.0 million con tract price, our
ca lcul ations range from a cost sav ings ofS7 mi ll ion (FY 2005) to a price increase (S PLS
co ntract mOTe expensive) of$ 13.9 mi llion (FY 2007).

Further,                                 a change- ill-repair method at the depot from
1aD-percent             to an                    .     maintenance (OeM) mix starting with
I DO-percent overhaul and gradually increasing OeM (not complete overhaul). Thi s
change-in-repair
price for depot work                                                                 or a
558.2 million decrease                         status quo                            percent
overhaul. Also, we were unable to determine whether the OeM wou ld impact ava ilabili ty
or reliability. In theory, the OeM philosophy could have a positi ve impact on availability
(decreased cycle times) because less cost ly repairs take less time but not performing
complete overhaul s could also negatively impact reliab ili ty (on-wing perfonnance) so
this new repair philosophy will need to be closely monitored . Due to the uncertai nty of
the status quo ca lculations and the change in maintenance philosophy, we be lieve
awarding a contract that exceeds 5 years is high risk unless the Air Force develops a plan
to re-eva luate future contract costs usi ng certified cost and pricing data.

Recommendations, Management Comments, and Our
Response
                                                                1h
E.1. We recommend that the Commander, Ai r Force 748 SUllp ly Chain
Management Group:

        a. Periodically (abo ut every 4-6 yeus) obtain certified cost or pricing data
and renegotiate option )'ear prices for the Secondary Power Logistics Solution
co ntract.



                              FOR OFFIC l /cL USE ON LV
                                          14
Air Force Global Logistics Support Center Comments
The Vi ce Commander, Air Force Global Losistics Support Center, and the Director,
    th
448 Suppl y Chain Management Wing, agreed. The commander stated that these acti ons
will be incorporated into future contracts. The commander furth er stated that the S PLS
co ntract does not have a reopener clause that would a llow for such a negotiation, but the
Air Force   is developing a mechanism to determine price reasonabl eness pn or to the
exercise of the next option year. If the Air Force determines that the cost of the contract
is not faif and reasonab le, it has the abili ty to not exercise the option year.

Our Response
The Air Force comments are not responsive. The comments discuss mostly future
contracts and not S PLS. In July 2009, the Deputy Assistant Sec retary for Contracting,
Offi ce of the Assistant Secretary of the Air Fo rce for Acqui sition stated in a deci sion
brief for the F-1 5 award that thc SPLS contract has 9 option years during whi ch the
contracting offi cer mUSI determ ine whether the pri ce for each option is fair and
reasonabl e based on current conditions as the Federa l Acqui sit ion Regu lati on (FAR )
requires. He also stated that the Air Force sho uld consider chang ing the temlS before the
F-1 5 portion is added to the contract to all ow for re-pricing. As stated prev io usly, the
additio n of Increments 2 and 3 all ows adequate leverage and incenti ve to negotiate the
inclusion of thi s clause. Without the cl ause, DOD has no chance to recover savings that
Honeywe ll obtain s from cost improvements and sig nificant cost reductions due to the
change in the maintenance ph ilosophy to "on conditi on maintenance" on the IO-year
firm-fi xed-price contract. We request that the Air Fo rce provide a response to the fin al
repo rt .

      b. C lose ly mo nitor reliability (on-wing performance) of seco nd ary power
systems depot-level repairables to determine whether the less costly o n-co ndition
maintenance philosophy is negatively impacting reliability.

Air Force Global Logistics Support Center Comments
The Vice Commander, Air Force Global Logistics Support Center. and the Director,
44Slh Suppl y Chain Management Wing, agreed. The commander stated that the Air
force is currentl y collecting and eva luating data to determine the impact that
on-conditi on maintenance had on reli abili ty.

Our Response
The Ai r Force comments are responsive.




                               FOR OFFICIAL USE ONLY
                                             15
Issue E.2. SPLS Costs - SPLS Increment 2
Calculated Cost Savings
Similar to the lncrement I analysis, delenninin g status quo costs and potentia l savings
from the sole-source Increment 2 PBL comract for logistics services and depot
mai ntenance suppon of F- 15 secondary power systems is difficult. The Air Force
calcul ated as a base line for negotiations that th e SPLS Illerelnel
same amount as the Increment I con lract ~rom                                        quo
calculation,                              2 contract would                       Air
 Force I                           "Backorder Buydown" to           backol'de,'s, The Air
 Force then                      assoc iated with the DLA                      for the
liiiiiiiIuYdown                Ln crernel1l 2 contract cost                    a saving.


However, the Air Force status quo calculation was based on an average CPFH for
FY s 2006-2008 with additiona l adj ustments ror cost increases assoc iated with FY 2008.
FY 2008 was the first year that significant F·1 5 workload transferred from contract
support to depot support. We bel ieve it' s difficult to make the assumption that costs are
trending up based on tile FY 2008 data. For the C- 130, costs increased significantl y the
first year work was transferred 10 the depot but then steadi ly decreased over the nex t
3 years.                 we prepared status quo calc ulations for FYs 2006, 2007, 2008,
                          3 quarters of FY 201}9 that shows the status quo between
                            than the Air Force PBL               I     '
                           Force backorder bu;/do,wlI

Recommendations, Management Comments, and Our
Response
[ .2. \\le recommend that the Co mmander, Air Force 74S lh Supply Chain
Manage ment Group :

        a. Update the status quo calculations for F-IS secondary power systems
using FY 2009 historical data (0 determim whether the Secondary Power Logistics
Solu tion contract is more cost-effective th an the status quo.

Air Force Global Logistics Support Center Comments
T he Vice Commander, Air Force Globa l Logisti cs Support Center. and the Direc tor.
    1h
448 Supply Chain Management Wing, agre~d. The commander stated that the BeA is
being reworked under the supervision of the Ogden Air Logist ics Center Financial
Management, and the results wi ll be used in the decision on contract Increment 2.

Our Response
The Air Force comments are partia lly responsive; however, we cannOI te ll if2009 data
will be part of the update to the BeA. We request that the Air Force provide a response
to the final report .
                               FOR OFFIC IAb liS" Ol'lbV
                                           16
        b. Enslire that the " backorder bu~' do wn" IIsed in the sta tus quo calculation
is not greater than the Sl)ecific contra ct requirement.

Air Force Global Logistics Support Center Comments
The Vice Commander, Air Force Ulobal Logisllcs Support Center, and the Uirector,
44Sth Suppl y Chain Management Wing, agre;!d. The commander stated that the SeA
status quo costs will be recalcul ated ( 0 match the backorder buydown requirement s in the
contntct after contract award .

Our Response
The Ai r Force comments are responsive.




                              FOR OFFICI,;L USE ON LV
                                        17
Issue F. Congressional Inquiry - Bundling
On July 20, 2009, during our project, the DOD Inspector General received a
congress ional inquiry that alleged inappropriate contracting practices relating to bund ling
requirements under the SPLS contract. The inqui ry raised concerns on the impact to
small businesses. As a result, we expanded our analys is to include a review of bundling.
We plan to respond separately to the inquiry.

As pan of its acquisition strategy. the Air Force perfonned market researc h to address the
impact on small businesses from bundling the requirements under the SPLS contract.
The Air Force market research concl uded that there would be minimal impact on the
sma ll business communi ty as almost all item5 were sol e-source to Honeywe ll. The Air
Force also concluded that there were measurabl y substantial benefits to bundling the
requirements to include monetary savings, increased pertormance and reli ability of
APUs, improved quality , and in creased depot capabilities. However, the ex tent of the
measurably substantial benefits that the Air Force was able to achieve o n the contract is
signific1'I Ilfly less th1'l n pl1'lnned

In add it ion, the Air Force Se ni or Procurement Executi ve (SPE) has not yet determined
that the conso lidation of requi rements was necessary and j ustified as required by the
United States Code and regulations. This occurred because Air Force policy is not
consistent wit h the established guidance and pemlits the delegation of .his determination
to the Deputy or Associate Deputy Ass istant Sec retary (Contracting).

We found that the bundling guidance in the acquisiti on reg ulations is not consistent with
the legislation regarding the definition of substantial bundling. Specificall y, the
legislati on requ ires the head of the contracting agency to detennine if substantial
bundling exists, bur the criteria set fonh in the regulations for substantial bundling is
based on the dollar va lues of con so lidated actio ns.

Recommendations, Management Comments, and Our
Response
F.I. \Ve recommend th at the Commander. Air Force 74S1h Supply Chain
Manage ment Group, obtain a determinatiDn fr om the Air Force Senior
Procurement Exec utive on whether bund ling is necessary and j ustified for the
Secondary Power Logistics Solu tion co ntract.

Air Force Global Logistics Support Center Comments
The Vice Commander, Air Force Globa l Logistics Suppon Center, and the Director,
44S lh Suppl y Chain Management Wi ng, agreed that proper detemlinati on for bundling
must be obtai ned, but di sagreed with lhe level of determination recommended . The
comman der stated that it is the contracting officer's responsibili ty to justify bundling,
according to FAR 7. 107(f). The contracting officer justified bundling on Apri l 18, 2006,
and the Deputy Assistant Secretary for Contracting detennined that consolidation was
necessary and justified on May 15, 2006, in accordance with Air Force Federal
                               FOR OFFlC l kL USE ONLY
                                              18
Acquisition Regu lation Suppleme nt (MF ARS) 5307. 170-3 . The commander furt her
stated that the AFF ARS confl ic ts with other guidance, but the contracting officer
fo ll owed the proper procedure at the time of the j ustification.

Our Response
The Air Force comments are not fu lly responsive. The guidance regardmg this Issue IS
clear that the SPE needs to detennine whether bundling is necessary and justified.
However, we address thi s issue furthe r in our response to Recommendation F.3,
requesting clarification on guidance relating to bundling.

F.2. \Ve recommend that the Air Force Deputy Ass istant Secretary for Contracti ng
r emove the delegation of authority for the consolid ation determination from Air
Force f ederal Acquisition Regulati on SUIJIJiement 5307.130 to be consisten t wilh
g uidance estab lished in the United Sta tes Code and acquisition regulations.

Air Force Deputy Assistant Secretary for Contracting Comments
The Air Force Deputy Assistant Secretary for Contracting agreed with the intent of the
recommendation. The Associa te Deputy Assistant Secretary for Contracting stated that
delegations of authority must be consistent with the United States Code and procurement
regulations. Further, the Air Force acted witltin its authority to delegate consol idation
approvals below the level of the SPE and ha\'e recei ved concurrences from the Secretary
of the Air Force General Counsel Office, Defense Acquisi tion Regulations Counci l. and
Defense Proc urement and Acqu isition Polic).

Our Response
The Air Force comments are not fu ll y respor:sive. However, we address this issue aga in
in our response to Recommendation F.3, requesting clarification on guidance relating to
bund ling .

F.3. We recommend that the Director, Defense Procurement and Acq uisition Policy,
clarify the gu id ance in the acquisit'ion r egulations relat ed to th e definition of
substantial bundling a nd co nsolid ation thresholds.

Assistant Secretary of Defense for Logistics and Materiel
Readiness Comments
The Principal Deputy Assistant Secretary of Defense for Logistics and Materi el
Readiness partiall y agreed. The Principal Deputy stated that he wou ld clari fy guidance as
it relates to the definition of substanti al bundling and consolidation (but not consolidation
thresholds) in the acquisition regulation s.

Our Response
The Principal Deputy Assista nt Secretary of Defense for Logistics and Materiel
Readiness com ments are not fully responsive. The current guidance in the fAR and
DFARS is not clear as it relates to conso lidatio n thresholds and respons ibility for
bundling detenninations. The consolidation th resholds in the acquisition regulations
                              ~OR o~nCI"b          US!;; Oi'lbV
                                              19
differ from thresholds established in other guidance. In order to ensure contracting
profess iona ls accurately implement policy relating to consolidation, the Director, Defense
Proc urem enr and Acqui si tion Pol icy needs to rev iew and resolve inconsistencies in
currem guidance. Therefore, we request additional comments on the final repon from the
Director, Defense Procurement and Acq uisition Policy.




                              !'OR OFF IC IAL USE ONLY
                                           20
Appendix A. Scope and Methodology
We conducted this project fro m March 2009 through May 2010. We performed the
review as a nonaudit service to eva luate the data used to suppan the decision to transfer
from traditional in-house s uppan to con tractor support. Therefore , the work perfonned
does not constitute an aud it under generall y accepted gove rnment auditing standards.
OU f review focu sed on documenting the accuracy of base line data used to s uppa n the
decis ion to move to contractor support.

During the course of the project, we met with the Deputy Assistant Secretary of tile Air
Force for Contracting; the Executive Director, Air Force Global Logistics Support
Center; the Commander, 748th Supp ly C hain Managemen t (jroup, Hill A ir Force Base;
the Director, Secondary Power Commodity Council; the Squadron Chief, Secondary
Power Systems, Hill Air Force Base; personne l fro m the Ogden A ir Logi stics Center.
Financial Management Directorate; and F-1 5 Engineers. We met with the following
representati ves from the Under Secretary of Defense for Acq uisition, Technology, and
Logistics: the Director and sta tffrom the Defense Procurement and Acqui sition Po li cy;
the Principa l Assistant Deputy Under Secretary of Defense for Logistics and Material
Readiness; and staff from the Office of the Assistant Deputy Under Secretary of Defense
for Maintenance Policy and Programs. We al so met with staff from DLA Headquarters;
the Deputy Commander and sta ff from the Defense Supply Center Richmond, Virgi ni a;
and the Commander, DLA, Ogden, Utah.
We reviewed data and documentat ion from FY 2002 through 2009 , focus ing on costs of
contracts, avai lab ility of parts, improvements in reliability, the impact of the s trategy on
DOD inventory , and compli ance w ith statutory and regulatory guidance. We reviewed
the Secondary Commodity Counci l' s Commodity Acquisi tion Management Plan,
Commodity Manageme nt Plan , and Acquis ition Summary for the SPLS strategy .

We reviewed Sp iral I, IJ1Crement I of the S PLS contract awarded to Honeywell on
A ugust 30, 2007. We reviewed p re award docum entati on to include BeAs, PNM ,
perfonllance work statement, and hi stori ca l costs from FY 2002 through 2007 for the 8 ­
2, ground can s, and C- 130 secondary power systems. We also reviewed component
improve ment program fund ing for these systems.

We also considered the impact on parts availability and reliability that w ill be caused by
the change- in-repa ir method from 100 percent depot overhaul to more on-conditi on
maintenance. We also reviewed the historical cost infomlation for the A ir Force business
case for Sp irall , lncrement 2 (F- 15). We obta ined and reviewed hi storical costs and
actual tli ght bours fl own for the 1-"-15 secondary power systems for the first 3 quarters of
FY 2009. We also reviewed component improvement program fundi ng for the F- 15.

We reviewed and compared the A ir Force am DOD shipment timel iness standards to the
SPLS contract requirements. We obta ined requi sition numbers for DLRs from the
Defense Operations Research and Reso urce Analysi s Office. Usi ng the requisi tion
number, we then obtained the o rder and rece:pt dales from the Air Force Materie l

                               FO R OFfiCIAL USE ONLY
                                          21
Command Tracker Database to deternline how much time elapsed before each requi sition
was satisfied.

We reviewed DLR req ui siti ons from FY 2003 through 2007 for 1,649 C- 130 and ground
can requi si tions from top lIsers (Kuwait , Qatar, Little Rock, Luke, Eglin, Seymour
Johnson, and Mountain I-lome A ir Force Bases) and 6,267 F-I S requisitions from
FY 2003 through 2008 for top users (Seymo ur Johnson, Mountain Home, Eglin, and
United Kingdom Air Fo rce bases). We then determined if the deli very times met DOD or
SPLS contract standards. We also reviewed perfornlance penalties for fai ling to meet
avai lab ili ty requirements in the SPLS contract.

We reviewed the reli ability improvement goals and Air Force data on acnlal reliabi lity
from FY 2003 through 2008. We calculated the weighted fli ght hours between
installations from the data and compared it to the contract baseline awarded under the
SPLS Increment I. We also reviewed penalries for not meeting reliability requirements.
We also reviewed contracts F45630-03-C-0043 and FAB8208-07-D-0002 awarded to
Honeywe ll to determine the amount funded by the Ai r Force for secondary power system
component improvements program , and held di sc ussions with e ngineers to detemline
whether the Air Force would continue fu ndi ng componen t improvements outside of the
performa nce-based logi stics contract.

Us ing data obtai ned fromlh e Defense Operations Research and Resource AnalYSis Office
for C-130 and F- 15 consumable items, we reviewed DLA inventory leve ls from
December 2008, annual demands from FY 2005 through 2008, and primary users for the
items to determine the impact to DLA revenue and if DLA inventory could be used to
sati sfy SPLS demands. We reviewed the memo randum of agreement relati ng to the
drawdown ofDLA assets for the F-15 secondary power systems.

We reviewed whether the Ai r Force compli ed with Section 346 of Public Lnw 105-261 ,
the "S trom Thunnond National Defense Authorization Act for Fisca l Year 1999,"
October 17, 1998, as amended by Sect ion 336 of Public Law 106-65, October 1999, and
whether the SPLS contract was consistent with BRAC 2005 Recommendations 176 and
177 that transferred procurement and management of DLRs and di stributi on and storage
functions from thc Air Forcc to DLA .

We also reviewed gu idance on contract bundling and Air Force compliance with the
guidance to address a congressional inquiry forwarded to o ur office o n July 20, 2009, that
claimed the SPLS contract was preventing compet ition on maintenance, repai r, and
overhaul services. Specifically, we rev iewed whether the Air Force perfonned market
research, considered alternat ives wi th less bundling, and made a deternli nat ion that
blInd li ng   w~s   neces..o;;ary   ~nd   justifi ed   ~I   the   ~ pprop ri ~te   leve l We ~'so rev iewed
additi onal benefit s anticipated by the Air FOTce.




                                           FOR OFFICIAb USE ONb\'
                                                     22
Assistant Secretary of Defense for Logistics and Materiel
Readiness Comments




                      OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                        3500 D€n:NS£ PENTAGOfi
                                       WA5I1!NGTON, DC 2.Q30I-.3!DO



                                               t.IAR 1, 2010


       MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                                    ATTN : ASSISTAl'.'T INSPECfOR GENERAL FOR
                                    A CQUISITION AND CONTRACT MANAGEM ENT

       llIROUGH: DIRECTOR, ACQUISITION RESOURCES AND ANALYSIS~\:>.?-\~O

       SUBJECT: 	Response to DoOIG Analysis ofSccondary POWtr Logistics Solulion
                 Contract (project No. D2009-DOOOCH·022iOOO)

            As requcsted. we are providing responses to the general conlent and
       recommendations contained in !.he subject analysis.

              We panially concur with the recommendations di«,.-ctcd specifically 10 us at B.l .b
       and F.3. Detailed comments are attached.

              While we panially concur with the findings dircc:led \0 AT&L, we 3fC concerned
       thai the gencr.ll tone: of the (cpon appears 10 t1iscouTlige, rethcr thlill 5UPpon, cUl'Tem DoD
       policy regarding adoption of innovative sust:tirunent Straicgies. particularly Performance
       Based Logistics. Wc will COllsider thc !\!CommendatiOn! in our ongoing effortS 10 refine
       the implementation and cffe<:llveness or outcomc~based product suppon strategies.

              Fo, 	                               of contact for lhis effon




                                                 !"riucipal Deput)'

       Allachmcnt:
       A s SUIted

       cc: DPAI'




                                                                 23 

Rtlpo. se to DoOIG Oran Noaaudlt Service Report on Analy.is of Steond.I')' POWfr
         Logisti C'S Solll iion Contrad (proj ect No. 02009-0 000CH..o223.C)Of)


Recommendation B I.b: We recommend thllt the Direttor. Defense Procurement and
Acquisition POlicy (DPAP). in conjunction with the Assistant Secretary of Defense
(Maintcnance Policy and Programs). develop implemenLng guidance to address the
requirements of the Strom Thunnond Act relating to eonvessional notification before
enl\~ring into prime vendor contracts for depot.level mailtenance and rcpair of a weapons
system or Other military equipment.

Resp9nse: Panially concur. We believc thcre is suffieie:!! implementing guidance to
comply wi th the Act' s rcPOl1i nS requirements. Moreover. OPAP issued mcmo guidance
as of February 12. 2010. with the intention to implcmentlhe requirements oflhe Aet in
DFARS.

Recommendation F.3: We recommend that the Direetcr, Defense Procuremenl and
Acquisition I'olley (UP A!') clarify the guidance: in the 3Cquisilion regulations relaled to
the l.Iefinillon ofsubWlnllllJ bundling lind consolidation t'1 resholds.

RHpoose: I'artiallyconcur. DPAr concurs with the DoD IG recommendation to clarify
the definitions for substarn ial bundlina. and consolidation (but nOI consolidation
thresholds) in thc acquisition regulations. DPAP will initiate a FAR
and a DFARS case to address the definitions.




AITACHM [I\'T




                                                          24 

Air Force Deputy Assistant Secretary for Contracting
Comments




                                         OEPARTMENT OF THE AIR FOROE
                                                      WMHIMGTOH, DC




   OFFICE OF THE ASSISTANT seCRETARY
                                                                                   FEB 2 3 1010

         MEMOKANUl)j\,·, VOK 1J1;:1',\KTi,"IEN"' UF UH l:.NSl:. INSI'I:L' I U /{ GI:.NERAL
                                      AnN: DEPUTY INS" ECTOR GINERA I. FOR AU DITING

         FROM: SAF/AQC

         SUIlJECT: 	Analysis of Air Fon.:~ S~ondUl') Po\\Cr logIstics Solullon Contmct. 

                        I'rojw No. D2009·DOOOCI I-0223.000. daled         J!tIlJaT)'   15. 2010 


                 This is in reply 10 )our mcmorundum rcqucslinl:: that tBe Ikpuly Assistan! SCCTCI:tr)· of
         the Ai r Force (Ctlnlructing) provide comments on the subject draft repan. Janu:tr)' 15.2010.
         This memorand um docs nOI address recommendations that an the responsibilityoft hc Director.
         Defense I'rocuremcnt and Acquisition Policy; Dircclor.lkfcnsc Lo~i slics Agency: Assistant
         Deputy Under S(1:relUry of Defense for l\'lainlcnancc "oliey lind Plans: Commander, Air Fon; c
         7411t~ Supply Chuin 1I,lanllgl'menl Group; and Deput)' CUmm,lIder. Ddcnsc Suppl) Cenl er.
         Richmond, VA. Th{' DoDiG IlSsign(..-d R~ummcndal ions IU .a. and F.2 10 Ihc Deput)' Assistant
         SecrelaT) u r lhe Air Fore e (Con troelin(!.). The responses for 1.1CSC t.... o rt'ConulIcndmions llT\'
         found below:

                 l)u l)l (; Reco mm end atiun 8. I.a.: " 'e reco mmcnllt ha t 1111.. Air Foret' J)t'lluly
                 Asshla nl Secrelary for CUnlraelin!; co mIII)' "ilb IhI:' rt quin:menlS of the Stru m
                 T hurnlOn ti ACI a nti notify Co ngn:ss of th e Seeonda!) I'owl' r Lugisli fS Solution
                 slrah·gs·

                 ~hm :I !;emc n t  Ac tions: The ,\ir f.' oree Ilgrt'cd Ihal lilt· Si rom Thurmonll ,\ elll ppliell
                 10   th e S I'LS slrale!O' bul hlld no l yel DOlifiell Co nl! u:ss.

                 Air I:oree Res[x)I)sc: I'unially Concur

                 Atlhc limc ofSPLS conlrnct a\\ard (August of2007),)u n hlld nul LmplcmC"ntl-d the
                 rt.'qui rcmt'nls uf the Strom Thunnond Act as noted by 11M." 1)01)1(i in its recommendation
                 n . l .b of this audil to 01',\1'. DoD no\\ has made ils illplcmem:nion of ,ht.· Strom
                 Thurmond Act I.'tTt'Clive on 12 FcbruaT)' 201 0 \\hcn ])?AI' I s~ ucd 11 Class Dc\'ill1lon
                 Rt'port ing Rl'tjui remenl for Prime Vendor Controcts. p-ohibiting eonlrtlCling officC"1"S from
                 a.....llrdillg prime vendor contructs for dcpot.lc\·c! maintenllnce lind repai r of \\cllpon
                 S)' ~1cms or olh~'r militur) equipmenl u",iltbe) arc not~ietllh(ll lhc Sct:rctal) of Defensc
                 or 1m' s..'Crclal) of a MitituT)' Depanment has submiued 30 dll),s prior 10 tit;: awurd oflhc
                 propoSt.-d eontr-JCt. the rcPOrilO Conwess r;,·quircd by SC"elion 346 of Pub.L. 105-261 as
                 amcnd\-d (IOU.S.C. 24&4 noIC). II \\ould be inuppropliole tor the Ai r Force to lIpply the
                 rcquircmcnts oflhis Act to un a\\ant mude in 2007 wren Dol) has estublished 12
                 Fcbruary 2010 as the cffecli\'c dattO or its impicmentation of lhc Act.




                                                                            25 

                                                                                                          1

Of course, in  (ICC()rU:lJlCC \\i l h the I>PAP d ~v ,al i{)n (ul\)l,'h~-d). Ihe Ait For~ will compl)
wilh the O\llilicll1ion n:quiremcnls before IIwlllll of IIny pri me vendor conImel In, dCp"I'
!lovel muinlcn:Hlcc nnd repai r uf wClIj:ons S) S!i.1n or otl:er military ~-quipmcnl .

HoUl G    R Ho mm~ntl ll lilln   F.2: WI.' rrcomm emJ Ihal lhr l\ir t'orer Deputy AssiShlnl
Srcrctlll')' (II r Conl Olctin e rr mo, e th e lI l'1cfll lion or authori ty ror Ih \' fonsulidlilion
d c ll' rmin a lion (ro m A ir Io"o r(:\' ..-ed l'nd Acquis ition Regu la tio n S upplc mc nl
(An' AHS) 5307. 130 10 br consistent" ilh guidli llN! CSla blishcll in Ihe Unih.· tJ SIIl I C~
C ode 1I001 ll cq uisil iu n n'guht tionJ.

Air Foo:c RcsII2JlSC: Concur wi lh inten!.

Delegations of nllthorit) must lx' consistent wilh the g,idllnec inlhc Unrh:d SUlh:s ('O\k 

and procurement regulations. In lh~ case of the consolidrllion 3nalysis.l~ dclelllttiun:lI 

A FFJ\RS 5307. 170 is uJ1ow~ by tnc statute Ilnd TCgull!ions. The AF as Ildl tiS the uther 

Ser... ic!!.~. h:"'e oc ted \\ ilh!n their authmit)' to delcl:ate consolidation determlO:uioll 

llpprovals bl.:JOII the level of the S I' I: in acconlance wilh F/\R 1. IOS(b). We 1m...... 

rel'ie\l«I this matler wilh the Secretary oflhe Air Force GenerJI c.;ounscl Oniee. DAR 

Council and IJ]>AP 1l01ic)' and Ihe)' h:1I'\' concurred with ou r position. 


In rhe Nlll i"n"r rkrcn~ Atll hmil'.nlion Act for Fiscal " ear 200·1. Con~l\'ss supplemcnh."<l 

the prm isions o n bundling ror DoD b) requiring a spe:ific documentation and approl'al 

process for I1!,:q uisition thai eonsolidat\'lwo or more re~uirelOents into Ii single 

solicit:lIion or ConlTlltt with Ii total \'lIlue exceeding 55 million. In fiK'\. the Federal 

Register Noti\'e issued S\'PI.-mbc:r J 7. :2004 (Volume (J}. Numbcr I 80)1. [Rut..s and 

Rcgulatioll!t].II·nge 55 Q 86·'j'iQR7! , I)F,\ RS ('lise 200~. D l OQ (interim Rule) spccilieall> 

sta t~'S thai "'DoD considers the reslrietions on eonsol id~t ion of COlliruet requirements to be 

s.::paralc and distinct from Ih\' restrict ions on contmct t>undli ng specified in the JI~"<lcrdl 

Acqu isition Regulation:' 


Wi,h r<!iP'-"'1 to ilund!in!!. FAR 7.107(t). Addi tion,,1 1l....1"in·m.·nN fo. A<"ttli~;li"n~ 

lnl'olvi nl,: Bundling. spt."Cifically 51111es; "'Without po\>cr ofdeleglltion. the SCf\ ice 

ItCqu;si tion <l",..-<:ul;"C ro, the m ilitar) d .. p;..1men'~. Ihll Und",. s....,relary oflk·rc n'<t· rn. 

I\ cquisilion. 1\:ehnolugy and I.ogistics for the dcfcnsc :tgcncics. o r Ihe Depuly Sl'('-retar~ 

ur ~-qui\·lIlenl fur Ihe civilian agcncies m:t~ del ermine ~l:tt bundling is nl'Ccssary and 

j ust i fi ~"<l \\hcn- .. :' The Air Force (AI-') ~ rcJdcgatcd this authority. II OlI'e\ er. 

 10 U.S.C 2382 (Public I.aw 108·136. Sl"Clio n 80 I). (.)nsolitiution ofContruct 

 Rl-q uircmenls. imph:mentl."<l in DFA RS 207. 107·3(11) ~ind udc any restriction on 

dekglllion. 


 FAR 1.I08tb). Dd eglllion of aulhority, stlltes "'Each 31.1lhoril)' is delegable un less
spt."Ci lically SUlled othef\l;sc:' Thc AI: has ac ted with in Ihis Ilu tho ril) 10 delegate
con:t<>lidlal;on d"'lenninQlion "ppru,'Ul$ b.llo" Ih" Ie' "I orthe A I: Senior P.-u.;:ur;.·n,,,ru
Excculi\·c (S I' E). Further. the Na\}. Ann). and lhe D:fells;.· Informnliun S)stems




                                                                26 

                                                                                                              3
         AgcllC)' have delegllted thc lIuthority 10 appro"c conso~d3t ion dClcnninalion in thl·iT
         respo..~thc agency regulations.

         The Dol) Oflicc of Smlllll3us;n~'Ss l'roglUms issued aUcndit Anulysis Guidebook. II
         Reji'rtl1ct IV AS~'lsllht' fkfHJrtlmml ofDefon.~.. /!/'qll;iji'lu/I Stratl!gy T.'Cllm ill Performill/!
         a Bent'fil AII(JI)'~'ls Iwlorl! CO/lSo/iilming or Bundling c.O/Url~/ Rl!qu;rl,'mellls, dUK'Ii
         October 2007. (This llendil Anal) sis Guidebook is ar update 10 11 previously issut"li
         guide by Ihc DoD Office ofSmllll Business Programs.

                   Chapler 2. 'Inc View from 10.000 FecI. page 2·3, under I)ctermination Slates; "11'
                   Ihc acquisilion strotegy t...am has perfurmed ils bendi! analysi.s ~aUSl.' Ih~'
                   sIrdie!;), consolid:tlt'S requirements. Ihcn the Senior J>rocun:mcnL h:\cculi\c (Silk)
                   (Nole 2) --- after r\'vicwing Ihc markel rescarch, henen, uool) sis. lind lin) other
                   relevant docwnenUltion •.. makes a dc!ennimuim ....: · Note:2 SUlI<.'S; "sr l! is
                   dclincd 3t FAR l.IOI and OI-,\RS 202. 101 . Inaecordlmee \\ith FAR 1. I08(b).
                   Ihe lIulhorit)' 10 makt' Ihis dt'ternlinmion is dele~lIble since the [)cfense Fcdcrnl
                   Acquisition Regulati on Suppkmcnl (OF ARS) doo:s not state uther\\ ise:'

                   Chaptcr S. Determinations. NOliliclilions. DoelrllCntation. and Re\'k'ws, page S·l,
                   under Determining Whether to Proceed. states that "Dctermination by th<.' SI'E
                   th:lIli consolid:llion is n•.:ccssary IIndjustificd (Iote I):. Note I references
                   "IWARS :;In7 170. ~(II) AI~. ~'e Il\!ency TCcubtions for dclclo:ation authori ty:'

                                                                             SAF/AQC I'. eommerci::l1 _




                                                    PAMELA C. SC IWEN KI: 

                                                    Associate Deputy Assistant 

                                                      SecretaI') (Con.meting) 

                                                    A!lsi~'''nl ",...n·"ry (Aclt"i~i'inn)



1\llIW:lullcnl :
01'.'\1' Mcmo:!0lo.OOOO2 dId 12 I' cb 2010




                                                                      27 

                   OFFlCEOFTHE UNDER SECRE'TARYOF O£F1:.NSE
                                        11000 MFI(NU:         ~ Ac;;oN
                                      ............ NGl"O!'oI DC   NlIOl~




                                                                                                                      ,
                                                                                            In n:pl~ rder to
                                                                   [)"R..~   frll(:kin@ Number 2010-()()OO2

Ml:.MI)RA"UI \1 FOH. <..:OMMANDER. 1JNllTO "I rA II:.S SPbClAl OPERA TION~
                         COMMA/'Io1J /A rrN' ACQlqSlllON EXEClJflVFj
                               c..·O~{.\.lA}o.;.OER..LJNll"'O       S IA rES IltANSPORTI\ nON
                                 COMMAND (A 1T)o,j· ACQUISITION EXEClJIWI·,
                               DFPUTY ASSISTANT \L:CRETARY OJ- lllE AR.\1Y
                                 tPROCl1REMEr-;T). DASA(PJ
                               Df;PlJr( ASSISTA~T SfCRlTARY 01 1111' NAVY
                                 (ACQl'ISIIlON & 1 OGISTlCS MANAGFl\.frVf).
                                    DASN fA&:.LM)
                               DEPUTY ASSISTAt-.: r SI'CRLTARYOfTIII' AIR fORn
                                 (CONTRACTrNG). SAfIAQ:
                               DIRECTOR.\. or FF.NSfo AGEhCIES
                               DIRECTORS. 000 .. ILl ,I) I\c·nVI1IES

"iUBJECT· Chw          [kV13hon     Reporting      Rcqull"C"lnent    f<-r Prime VmdorContraclS

        Effl'Ctl\e immcdii\u~ly. cuntt'ICtmg officers arc probbllOO from tlwllfding prtme.­
,mdor contnlCb for dtpot-Ie,·el mlluncnMcc Qrld repair of a \lieapon system or other
militat) rquipmenl untillhe) are notified thai the SccrctIU"I of Defense: or the Secretat}
ora Miliuu)' Depanmcnl has submittro. 30 da~s pnor It) Ut award of the proposed
contracL the rcpor1 to Congress required b) ~Iion 346 of Pub. I . 105·261 . as amended
(10 u.s.c. 2464 nOle). Ibis n:pon contain) InfMnalion 0'1­

'1/ l"tlInpc:1ithe procedures 10 be used:
(:!) <':"..IIbcn~tit llflal)1i:s djlfllOnstratlOS $U~ HIIV' '''~.... t1~     lire- 01   lh.,. .. onU":ill:t.
(1) Anal}sis ofconf~ with 10 U.S.C. 24()(j. and
(4) A description ofmeasurcs tal.cn to ensure 10 USC 2464 is not \'iolal..' (i

        This dc\ iRlion remains                                                                       oco<h,n' '"
rtSCindcd '-',                                                                                                 \ill   ~mllil




                                                                   and Aoquisition PoliC)




                                                                                                                               (.(.




                                                                         28 

Air Force Global Logistics Support Center Comments 





                                     DEPARTMENT OF THE AIR FORCE 

                                        AIR FORCE: MATDlIR COMMlHO 

                               ....R 'ORC£ GLCHlAl LOGtsn<:5 SUPPORT C£HT£R 





       MEMORANDUM FOR Departmem o(l)efense
                                 Office o flnsp«:tor Ocn<:ral                      FEB J 7 lOla
                                 400 Ann)' Navy Drive
                                 Arlington. VA 22202

       FROM: 	AFOLSC/CV
              102 Wcsl l&iey SI;r«:I
               Scott AFB IL 62225

       SUBJECT: Audit. Analysis of Air Force Secondary Power Logistics Solution Contract, 748th
                   Supply Chain Management Group, Hill Air Fon:r     ~,     UT (Project 0 2009­
                   DOOOCH.022J.()()()

       1. Atta<:hcd are Management C~nt:s to Non-Audit Scrvi;e oflhe Secondary Power              Loglslic~
       Solulion Contract repon of audil. This docwnents action tak~n on Recommendations A.Z., C. I.,
       C.2.. C.3., 0 .1.• 0 .2., D.l., E.1 .•., E. I.b., E.2.11., E.2.b.• and .',1.

       2. Questions concerni", this action should be addrcssl"<l
       748 SCMOIOMO.




                                                            ~?
                                                            Colonel, USAF
                                                            Vice Conmandcr


       anachmem:
       Managcmenl Comm~'nts




                                                                   29 

                               DEPARTMENT OFTHE AIR FORCE 

                       4481K SUPPlY CHAIN MANAGEMENT WIll a (AfMC) 

                             TlNKER AIR FORCE BASE OIUNfCMA




                                                                                         12 Feb 10
MeMORANDUM FOR 	DCIXU"uuell1 or Der~~
               Office orlm-peeter General
               400 An nyNa.vy Drivc
               Arlingtoll, VA '22202

FROM: 448 SCMWIDV

SUBJEcr· 	Audit. Analysis or .~r Force ~..toooruy Power Logis.tics Solution Contnict. 748111
          Supply Ch.,in Management Group. !-lill Air FOfC! BII.SI!, UT (Project 02009·
          DOOOCH·0213.000)

I. AUlIctlcd wc M3J\agl.'Tll<:lIt ConlTn.:nts to NOlI·Audlt So."'I'V itt orlile Seeondary Power LCSt!!IICS
Solution Contract rcpor1 orlludil 11us (\()ewncnls aClion tak(1l (\f\ Reconuncndatiol1$ A.2., C.I ..
C.2., G.3, D I., 0 2.• 0 3., E. l a. E. Lb , £.2 .a., E.2,b., and r 1

2. Questions ('Ql1ccmif@ tlus action shCltlid be &ddrCSS<:!d 10 _
i48 S    tGroMo.iiiiiiiiiiii
                                                             .:.......:.~, ~ '...	         \,. 

                                                      JOSEPH M, PINCKNEY, JR" Col, USAF
                                                      Vice Dircctor
                                                      448lh Supply Chain Management Wing

Attacluncnt:
Managemcm ConUlletlls




                                                                 30 

R.. purt ur Aud l!, Armlysb ur Air "',,rn' S."'ut1d,,ry P""'cr Luelslh~ S.... u'I'"r CUll' ......·'.         7~Slh

S llppl~'(.1111111 MillIIlgc- lIIftll Grou p. 11111 A"-II UT (1)2009-DOOOC:II.{122J.OOO)



                                                Rc-nnnlll cnd li llOll   A.2.



' Ille Dil'l:\:lur, 4481h SIIIIfII) Ch:ain M afl~gnncnl Willg. slM)Uld dirtCllhe Commander. 748th
Supply CIII,in ~llInll&,!ll\o,:ol (ift1ull, 11.1 lo ll ol~ Ih~' 531lIt nldhOtlology 10 U!it 1100111 535.0 milliQn of
 lkrellse Logislies Agl.'ncy r&lis.:l'l for C.-I.lO ili:'lllill!.lld an)' l.ILh<.'r Sc....ond:ll)' I'ower Logislics
Solutio" (SPLS) s p ir:tl~ and incr~""ltnl$.



M;III:.gt·nwl1I COIlIllItnlS: "110: l)ircclor. 448th Supply Chain Mlulagemcni Wing, and Ihl.'
748th Sup"ly e h.,;" Mmlag<.'nwII' Group Commander conc ur with intent, We l'I~ Ihal i\ is in
the best inler~ II'! I!.ttempt II.Ild utilize to Uti! maximum ement practicable, the e...:cess illl'CtlIUl)'
held by DLA m reltllion tl.l Ihe (,, 130 a.ld SI'I.5 ilICrem;;nt \. Increment 1 is already awarded.
:lIId 'JorlCy\\d l hI!.); prf,w ious ly tlU Cf~1 int" lung-11.'1111 M>UlI:II~ IImrng.:tncllls with il5 \'C11dors fQr
the .liupply o rpllrt.~. DiJolCIISS IO'I.~ \11th I h"ue ywdl ;\nd IX..,.\ lUI! ongoing in regards 11.1 this issue,
WI! are all<!11lpting 10 determine a ''!)est fiC solulion Ihal wi ll liloll fur dr,r\Idown ofDLA
inwl\,oty . and ensure Ill.Ine)'well i, ah le to meet i,s cl.lnlrnclml obligal ion~ wi,h it' l'el\doM!.


l':lII IIII:l I('(I   CUlllpl('lhm 1):11,,: 30JuI\ 10.




                                                                            31 

RC'purt ur Aud it. Arm'ysb ur Air .'"rn' s."·umJ,,ry p",,·.,r Lue'slh~ S.... ul''"r Culll .......·I.   7~Slh

S IlPJlI~'
        (.1111111 MillIIlgC'lIIftlt Gro up. 11111 AF IJ UT (1)2009.DOOOC:II..{J22J.OOO)




                                          R('('ommrndntion C. I.



111.. J)i",ct~. 44Nth Suppl), e h:lm Mllnlll!~mcnl Wing. ~ hou id dil\....1 lhe Clll1lm:mdcr-. 74811"1
Supply Chain M:an.~~m~ni Grou p. 10 ..'SI~bJish proc.:dUNS to m.:w;ure 1.'"\b'UIII~r wail time :lS
dcfincd by Ihe 101:11 dap«.:d time between is.~\lllIICC oh cuSIOOlCr order and ~:l1i$rllct ion orlhal
order.



M:lllagt-llll'"lll Comnu-nlll: '111c Director. "4Klh Supply e hai, ~ l anagemen1 Wing. and IIIC 7481h
Supply Chain Manl1ge menl Group Commander eoncur wilh It,is recOOlnlend:\lion. Customer
wail lime h:u; and will COll1 il1U C II) be 11lI:as\lr~ rrom Ihe lime a ficl d :rclh,lty $ubmil$ II
rcqu isilil)l1 lo the limc they r..-ech·c a 5en;ccablc a.ss<:1. Undc- SI'LS.lIoncywcll i~ r.:quircd Iu
mret I/le S I'I.lS standMd wllCtIIC!" or 1101 a 5cr'lireablc &&&1:1 i, readily 11\'3ilablc In warehouse
stOrdgc. l lnder UM;\·II I'S, DLA ;11 0111)' n;quircd 10 tI)CC\ Ihl.' DoD ~ I:rlldard iflln asset is readil y
uvailllhle in \\'an:: hou~e stoo ge. "l"h i:o metric is ro.:\'ie\I~ d II qU.ll1.:rly 1)~ t Rs. and IIIC report
II1nlul niucd on o: l'rujcl.'llI ror CO\'eOltllcnl o\"o.'n<ig.hl.




I'()C' _ _ _ _ _ _ _ _ _ _ __




                                                                    32 

RC'purt ur A ud ll. A rmlysb ur Air .'"rn' S."·u"d,,ry P"" 'cr Luelslh~ S.... ull'"r Culll ......·I.               7~Slh
        (.1111111 MillIIlgC'lIIftli Group. 11111 A FIJ UT (1)2009.DOOOC:II..{J22J.OOO)
S llppl~'




                                               Rc~nnnm cnd lli ion     C. 2.



'111e I)il\'dor. 44J;lh Supp ly <"11:\111 !l l allag~'TIIr:nl Wing. l hould lIif':~1th ... CUIIlIII:\ull... r. 741111'1
Supply Chllin Manll~mcnl Gmup. lo r:stabll.~h and lra~k Sc'::\IIldlll')' 1\)\\.:1" Logi~tiQl SoMiOl'I
eonlnlCl m~lrics lo r (lv:li l!lhility (~'1j.<:tom~f wait hm~) IhlU lifo! CI.j\QI 10 or beller Ih:m 1)01)
Unifonn Materilll Mowment and Issllo: Priorily SllIndnrds.



M:IIIIlj!t'nWIII COfn mt'lIls: TIl': Din-elor. 4481h SUPI)ly Chah ~ 1 :UUlgelll ...nl Wins, lind II~ 7481h
Supply Chain ~huragcmenl Group COUlllllmder L'oncur \\ illll!..: Illldil n:roTlimclldalion. We will
review Ihe shipfllct11 of I'riority 02 :lnd 0) requisitions 10 ~"Yminc ifil is eronomically
justili:lbh.- to al11C1ld thc contract so Ihat lh<!Sc requisitions lU'cQlso requir~'I.Il o bi: filled ',;Ih;n 2
bllsine$ll days for CONUS sh ipm~'1\l~ IV1d j bllsiTlC$.~ days IbrOCONUS shiplllents.




                                                                           33 

RC'purt ur A ud it. A rmlysb ur Air "',,rn' S."·u"d,,ry P"" 'cr Luelsth~ S .... ull'"r CUIlI ......·1.           7~Slh

S npJlI~'
        (.1111bl MillIIlgC' lIIftlt Grou p. 11111 AFIJ UT (1)2009-DOOOC: II..{J2 2J.OOO)



                                             Rc~nnnm cnd ll iion     C.l.



'nle J)ir"'~1t,)1". ",<lSth Supply ('h:.il1 ~lalll\g':\ 1'II;'1I1 Wing. ~1\(Mlld dir«:t Ihe Com mander. 748th
Sl'l,ply Chain Manllg.:m.:nl Gmull. 10 cstahtish eontrllL1 ,ncc rl h'C'l! or pcnallie$ ItWil an: sufficient
10 ':IlSUf~ required !I\'!II I ~bi[il)',



M(ln l ~mU'nl CO"IIn!.1uli: 1l1~ Dir.:clo,. "<18th Slll)J)l~ Chan ~ l anag':lll.:nt Wing. and til.: 748th
Supply aWln ~bmlg.:men1 GfOUp COIllIIUlnti..-r roneur II ilh I~ !ludil n:colllm':ndalion.
Contml;lor pcrfonnanI:C 10 dat'" indkatcs IhDtl hc SPLS oonlnct CQnb.ill$ sufficienl in«n live 10
en.~ur~ Iioneywe ll collIp1i:'mee 11;lh slaled ~onlraClUal objcdi\~ in reg.1rd~ 10 a\'lIilability. -nlm
liN nft·guards in place 10 enfon:e th is p.:rroml.,nct·.



    I)      1'1...') IS 1\ 100y.:ar3\\·l\rd, with I ball... ) \'ur:t!ld 9 I·Y':II" Ol"ioll. 11l1.' 748 SCMG ~rves
            Ih~righl10 un;I:Iler:tll y cc:Ilic ~'Onlr.tcIlHtI ~r1Onnancc ,·b IiU[UN If) exerciSe opl;"". II!!
         11.'('ded untl<:r CII'CllnlSIIUICI:-'1 1\ I I~rc e()l1tm~"tor pcrl,mllwlcO: ;1: t'()ns ideT\.'tlI I\~ufJicicnl.
         Vicw~jl from t hi~ [M.npoa.1il e. Ihe p.-.tcnlillll o1n l pc:n n'ly 10 Ih" ..".-lOlrnL"Inr is \I~ emire
         \'lIIue of 11K' cOlllrnct. We f~..: l lhis ;~ sullicicnt mOlinlins inccnt;l·c.
    2) 	 DoD 10 was asked 10 pro\'i~ Ih.: ~'SlablislM:d guilk tin.;:s for monelUf)' IMlalti.:s in su;;:h
         c ircum$lan~. TIley indicated 11\31 tiler.: arc no cslab.is hcd guidelines, '[he 748 SC}.IG
         helic\'cs Ih:1l curren l ""mtil ies;'I1\! sunici~'111 10 mOl;"n:e contrnclor pcnom1U'k-':,



I\ clloll Cnnrplctrd : Closed.



poc:




                                                                          34 

RC'purt ur Aud it. Armlysb ur Air ,,' ''t'n' S."·u"d,,ry P"" 'cr Luelsth~ S.... ull'"r Cunl ......·I.          7~Slh

S IlPJlI~'
        (.1111111 MlIlIIlgC' lIIftlt Grou p. 11111 AFIJ UT (1)2009.DOOOC:II..{J2 2J.OOO)



                                                 Rc~nnnm cnd ll iion   1). 1.



-Ilw J)i~~'<)I'. "'48th SUPJlly (, hain ~b.lllig~lnerli Wing. ~Imuld di~~1 Ih~ CQlllmaod~'f. 748th
Supply Chain Manflg~m~IlI Gmup. 10 cSlabti~h IICC!"""h! rdinhililYUa.« lint'S from hi!>1or;clll dlIlll
:Ind dct~rminc r'l:ldislic impro\,i.-n!cnU; that Clln be obl.:linr:d Ihft)ugh n~goll:ltiQII$ \\llh aJIProprilll~
incenl;\-cs   lUU.l ~n:altics.




M:IllI1 j!t'nWIII COflllllt'1I1S: TIl ... Director. 448tl'l SUPI)ly Chab ~ I II/mgclll ... nl Wing, Il1Id Ih... 74811'1
SUl'ply Chain ~laI\Dg;!menl Group COlllll111lldcr L'OnCur Ihal a mOn.' !tccurnlc re lillbi lilYhaseli"c
niS!d~ 10 be ~I abl ished. 11.c 748 SCMG p;:rfomled II r\: \'alidllion effort on the dalll originllll)'
IISL-d. 'ille rC \'lllidatiQII cOon uliliud d:Ull lll'roSS II IOllgl'f linlo: rnlllIC and pro\'idcs a more
accurnle pil1un: Ilnd highlights sOrlie errors in this report. ~ I d:ing a change to the conlnlct
1JII.'«'line IL~ this time L'Uuld pOhlflti lllly hltvc signillcllnI COSI hlpllCl. TIlis impat1 mlL~t be
:lSSCSSl.:d•.\1J1O. there Itn.' 00 estab lished suiddin~s for penalt es or incenti\'Cs. '1111.' 748 SC~ I G is
orlhc opinion t"lIlthc Cllm:11I imx:nlh'c§ (I lonc)'\\cll i~ inherently inc..'tltiti7.cd wjlhin thc
COli lfOCI h I iml'IV\'C r..-lillhllity) a nd   penalties liN :lJIPNllti3hl




                                                                           35 

RC'purt ur A ud ll. A lmlysb u r Air ,,' ''t'n' S."·u"d,,ry P"" 'cr Luelslh~ S.... ull '"l Cunl ......·I.      7~Slh

S IlPJlI~'   (.1111111 MlI lIIlgC' lIIftli Gro up. 11111 AF IJ UT (1)2009.DOOOC:II..{J22J.OOO)



                                             Rc~nnnm cnd ll iion     n . 2.



'111e Dir.:~1or. 44St" Supply C hain ~ I almg~n'lent Wing. ~'muld dinM the CQllInl:lIld~'r. 741(t"
Supply Chain Manllg.!mcnl Gmull, lo di!1cnnine: wllo:!,hcr it iSlll'propriulc to rUUlI COOlflOll<=Ol
IIll prowmenc progr-.lIl1 r.:pl:tccm~m,~ upgr:l(k ~ I)UI.~ ld c It p<.-n(fm:UK!C ba.o;;ed IOglJ,1k'1l :lmngcmi!nt
and. if appropriult. d"1ennirw how the Air Fon:c will ~unl for- r3\'ornblc 3\,aiI3bilily.
re liabilil)', and COSI im plK1 on the &.'COI1dary I'ower Logislicor Solution eOlllrn..1 .



i\1 l1 l1:l gCIII I'l11 COIIIIII CIII~: 'The Director, <148m SUPIlly Chab Managemcn' Wing. and the: 7481h
Supply Chllin Man3g<!lllent GMup Commander concur wilh oudill\.'(o mmcndalion. While
Ii oney\\ell is inhcrC1nly irK!cmi\'izoo 10 make reliabililY ill1lni>\·enli.'1I1S und~'r Ihc SPLS contraC1,
il is re:l~onablc 10 expcC1lhJll 1-lolle),w<: 11 \\ ill fQ(;ll~ Ihei r dlO<ts on Ihose impro\'clllcnlll ihat
reduco.\ d.:poll'CJlnir COSIS and have II payb.l~" pt'Tiod \\ithin t he lili: of lhe eOOlrXI. for Ihose
~habmty IIlIl'ro\I:I11\:III1O tllaillaw II p:ayb:,,:k period hmg"r tl,;m tile life of the SI'I's t'ontr.l~·I. thl:
Air FoJ'(:c C~ lInOI t'xJll=ct 110IICy\\,.:1 110 m~h' Ihose impfO\'cm:nts. IIOWe\'cr. 50l11e
ill1llro~'cm~nl~ may he in Ihe be}!1 UlIcrcst ur lhe Air Fon::c bemuse Ihey lowcr 101:11logistics eOSIll
bol)'''I1~ Ih~ ~o.u of d.I\'~lopl'll;:nl . 1I~"'UI&illun. and nnplulmrm.ciotl. In Ihal C;a&i:. Ihi: Air FON;:
would pos~ibly PUr.>IIC100sc rdiabililY ill1 pro\'':l11~'1lls outside or the SI'LS COOlrae!. 1lI0001Iikely
under !lie CompolH:nl lmpro\'crncliI ProgJlllll (C II'). If s uch I CI1.'<C IICN 10 oc;;u r and depending
lIpon the lIellial den·lopm;:n!. acquisition. ;lnd impicmelllll,ion ~tr.l ..: sy em ployed. Ih;:
Iwnonllallce mClrics as we ll :u: eonlraC1 eosls may II~~ 10 be modified. TIle Air Force would
ne..-d 10 as..~ure Ih91 Ilolle)'\\.:11 dOl:S 110t recei\'c fillllllcial bclldi t ror reliability impro\'l:nlclils Ihal
W;:N n:o.lil'.i:d b;}':III1o:J.i> of Air 1:0"";: .:ITolU oUl:Iid.: orlhe S I'I..s ;:O"I m':I , In \.:m,,, or CO"I""-",!
cosls. lh;: plll'J'Ol'l: of a modificalion would be 10 I~\'elll 1I0n:)'w<.'1I rrom r;.occi\'ing "free i~uc"
a.,seb or being paid for n:pail'll they didn' l perfonll irlllc Ai r Foree wcn: 10 fi lily actluire all)' lIew
improved BlSets or moilificalion kits (10 impro\'c cxisting assets) outside oflhc SI'I..5 eOlllmcl.

  pr~nt time Ihi~ scenllrio do..'S not esiSI. bUI we fully ngre: wi th Ihis ph ilQ.'lOphy and will
}\ t
mak;: apPI'OJ)ria t ~ Adjustments in Ih;: e\';:111 that 5udl an c!Tort is \lnd~'I1 a"'-'1I using Ih e CU',

I\ cllon (;ulllpl'-'I«I : Closed.

poc . . . . . . . . . . . . . . . . . . . . . . . . . .. 





                                                                         36 

 Rept"" ur I\"dll, 1\""ly~ is ur Ai r F"" ,t' S'-~U lttl" r)' V.....·t'r L"g l~I I'~ S"'"II"" CUlll r""I,
7.#11h Surrly C ha in ~1"n M="'IIll'1lI Gn,ur, 11111 ,\ I'll UT (IlZ00'). I>OOOCII.OZ13.000)



                                             Rc~nnnm end ll llOll   1>,3,



'111e Dil"«:lor, 044Slh Supply Chltin ~ I :ma g~'ncn l Wing. ~houlo difi!~1 I h ... C.)lllIll:lIldcr. 741hn
Supply Chain Manag.!mcnl Group, 10 dctC'nl1inc whether it i... "pp ro)J!fi~ lc 10 fund COOl!"'Olli! nl
Improvement pmgr.lIl1 PnUCCL~ (to imrro\ ~ relilibi lity, 001 ~:lrcIY) lhal an: ~1ledul ed for
~fonlJancc.ba.;ed logistics 31Tl111gl""lIlenls.




M;tll lIl!" IIl ~'1I Cotn lllt'ul!l: TIl': Director. 44811'1 SUPIlly Chab ~ 1 :1Il.1gCIl1"'nI Wing, :lIld Ih.: 74811'1
Supply Chain ~ lan8,g<: lIIenl Group COllllllllndcr ,-'Oncur wilh lII]dil r.:collllll<.'ndalion. ll ollc~"'le li is
inhefeJUly inccnl iviud 10 mllko.l rc lillbilil), impro\'~ ments Il hi:h would lOWe!" Iheiro"C'r.III C05I.~
(i...... Rduce numb<..". of I).:pot rep.1ir at1ion!l). IIOllo.'"er, Ihe~ an: i mprol'~'ncnls Ihul ,,0uld A't
lower lIoncywd!" owrnl1 coslS, And lIe dOll't CXPCCI Ihclll to implement tl lOSc intpro''Cmcnt~
If those impnwmlc l1Is IIrc.dcem<."d 10 IN tn Ihe. bcSI imcr~.,;t ar lhc }\ir fOf\."'C. Ihen we would
~"(,Insiucr ptln uing 11"-,111. EIlch iml1fOl'Cmelll. though. II Quill ~ taken Oll :t casc.by,casc basis and
el':lhlllled acct)l\ling 10 IIPldicahle inr"mlMlion (i.I: .. SPtS ronrnel poi nt and Ihe impacl of the
impro" ement). Ali slaled III part 2. $p..",:lal ..!lOrIS muSI he la ~cn 10 m:lkc ~ ure Ihal i lone~'\\ e ll
0.11)1.' 6 nOI "prolif ' ''l th;l t\ tr ForN', .:~p.:n6'"

AI pr~~ 111 time this sco.' n:ulo 110\,'$ not exisL but wc rully IIgrc~ wilh Ihis philosophy , nd will
make appropria lc adju.~tmcnls in Ihe el'clilihal such :m effort is undCl1 akcn using Ihe Compont'nl
Impro"cm...'t1t I"-ogrnm.




                                                                        37 

KC'JIOrt ur A od ll. A rmlysb o r Air .'"rn' St·,;ut1d",.y          p""..,,. Luelslh~ S.... uII IH , CUIlI ......·1.   7~Slh

S llp p l~'   (.1111111 M all llgC' IIICi'I Gro up. llill AF IJ UT (1)2009-DOOOC:II.{J22J.OOO)



                                                 K«O IllIlll'lId Il IIOIl J::,. 1.1l.



'!l,e l)irC'~1<)1', 44l\Ih Supply {'hain MII'lIIge'net'l W ill ~ should dirc..1 the CUlllnlaodcr, 74!(Ih
Supply Chnin Manflg<!ment Group. 10 pcnodil:;lIly (aiitlul 4-6yenlS) 00111111 ccrtilied «A\;I ,tf
pricing, Uat:l and Nn;.:SillililCoplion }';.:ar price::! ror Ihe s c,:ollc:try I'ower Logifll.-s Solution
cOlliracl.



M:IIlIlj!t'nwlII Cotn mt'nts: n,e Direclor. 4481/1 SIIPI)I), Cha b ~ I :I/l.,gcrllent Wing. nnd Ihe 748t/l
Supply Chain ~Ianag;:mcnl Group Comll1lUld.;:r l-onc ur wilh ." dil r«Ollllllcooalion. We concur
\\ illt the concql1 or rc.pricing:u or IIboUlthc midpoint or It \6-ycar agrtCmcnt. llris concepl will
be incorporaled inlo future contracts of this nOIUR.

"fl'WI . In tI.wd ,'1' II "It; ' "hl <ll'....,.~" In .. ""r~ Ihill <:nnc"n. f"" Ihe .~"iSI; ne .... ,nlm,,1 are
currently underwa)'. We will de\'dop and expect 10 ha\'e a so.lnd mcthodolo&.\' in place 10
\'3Iid:lle R:lson"b1cness orprk;: prior 10 exercise or ne,",1 Otllion. '!lIe cum::nt .;.'OOIr:lCt docs nol
contain a n'OpC1lo:r dause which would alloW such ro!m.:gotiltlJOIIS during lhe ~riod or
".:rrorlllan.:<: 10 lake "Ia,-'t. Unll.."!' the cxisting SPLS CQI'lI'3CL the Air FOl\:e hIlS Ihe abilil)' 10 n Oi
e:;;crcis.::U1 option ir lhc dctcrmilllliion i$ made Ihat the COlIt d'lhe cOIltrncl r" nol deemed rail" and
rc3.~onablc at thut point in time.




• ~Ihlla lcd Conlp ll't lo n      J):a l~:   30 No\' II .



I'OC:




                                                                                  38 

Re pton tlf A udll , A It:lly~ls of AI"              .''''''t'
                                                s....'''l1d IlI''Y l'VI""1" l "I~SII "' l!iolUlhill ( "lIl1lm('l" N Hth
S UIIIII,' Lindll ~1"ll3gl'.lI1 nll (:r"'lr, lUll ,\ 1' !l IIT (1) 21MI9,,I)lKMK ' II.U223,OOIl)



                                                       K"'''llIIm''"d,,111I1I .:, 1,.,.



' Ille Di"",1or" 448 tt1 Supply ( ' lmin ~ 1 ~l1l1g~"1nenl Wmg.. "llUUld t1irL"t.1 Ihe COIllIl1:lIIt1er, 74&t h
S UI'I' I,> Ch ai" Malll>~"""'" OtVU I', ' u dv"cI,) "'.... ' il.... ,o:I;,,"i~l)' (u... wi,,~ 1""fu""" II\;O:) vf
s e.-olldllf)' poII;:r 'Yfih.'lIlS d~pol , ' e\'el r':pllirnblcs 10 d"l.-ml1ll~ ll lleth er tho: 1~'SS cosil y on,
ctludilioo m:lintcnlltK.'C phil~ophy is llegatiwly imp~clin g reliabililY,


                                                                                                      til<: 74Rth
.\IIIII>ll!t'II1"1I1 CUlIlllwIIL.. : "0,... Oir,,"'lOr, 44&th SUI'Ply (,hllin ~ l lIIJ:lg;:m~'1U WillS, :lJIo.I
Supply Chain MlIlllIg...mcllt v mup COlllll1l1nticr conClI1" \\"i.h lIuui. rcconu"':nt1.1Iioll. o.'\.'\C R1'S,
NRTS, and flying hnun; d.11:1 is ~ins colleded now and will roIltll1uall)'be el'lIllIaled o n a
' 1,,~ n t,...ly   h.UllI .n ......" rm;m· \\h.~1 ( ir guy) "nr"CI " ,I.c.'I II.li,i"" """",...,,,,1,,,,.. h..... h g,1 " I" ....
r.:liabilily,



R..IIo""I,,<I (''''''rl"II,,"          1):11.:   "\/)JII" UI



poc,• • • • • • • • • • • •_




                                                                                        39 

Repton tlf A ud!l , A lt:l ly~!s of AI" . 'u"'t' Stol'" .. d",!,)' l'VI"I)l' I "J~SI I "' l!iolUlhill ( 'olllm('l. NHth
S UIII.I" Lind.. ~ 1 :Ulagl'.nu'Cl l C:r,,"f'I , lUll ,\ I' II UT (1)21MI9.I)lKIIK 'II.U223,OOIl)



                                                     K.....·U IlIlIlt' U.. :oI!1.I1I K 2....



'nll: l)il"c!C\QI'. 44Sth Supply Chain Ma"a~n'lo!nl Winc, should t1in...t.1Ihe Comm:lIIt1er. 74&,h
                                 0'1.1"1" I" "1,,"," Ie:- II", "I ""~~ '1"1.1 ".1.::.. 11";1.1",, r", 1'· 15 ..... .:""u'uy
S"I'IJ I~ e lm;" '\I''' 'I>~'''''''I
po\\ .:r s)YI ~'IllS usin g FY 2009 hiBfQrkal dlila 10 d.:1.:nllin~ \\ltclh\.'f the Secondary i'ow~r
Lugislia; Sulution conlnll.'l i... mon: ~·ooH:ff(lo,;li\'l;." Ihlln Ih~ fila:tJs '1110.



,\I 'IIIIII!!I' '''''111 C~"lIIl1'lIls:
                            ' 1110.' OirtclOr. 44&'h SUIJPiy (,h!li.lll l llll>lgt'm~.,u Wing. :mu Il k: 74Rttl
Suppl~ Chain MHrmgcmcnl Omup Colllllumtkr coneul"' lI'illl /R ldil r.:.:om rm:ndalion. OCA ili
undc!'£olng r.:work now JUldcr Ihe allspk.:s of'OO·A I..CJt'M. UpIJ:\u:d I'o:suhs w ill he u.,old 10
"~".'ftl';'k! gI•• " I .." ." '~L";l<;ll" CII.   ;""'r"""..... 1


.~thml t t'tl   C umpltt!o n I}.H(': 3 1 Ike 20 10.



poc:




                                                                                         40 

Repton tlf Audll, A It:lly~ls of AI" . 'u,,'(' s....',,"dllI"Y l'VI""1" 1 "'~SII "' l!iol ulhill ( ·ulllm('l. NHth
SUIII.I" Lind.. ~1 :Ulagl'.nu'Cl l      (:r""r, 11111 ,\ I' II UT (1)21MI9.I)lKIIK ' II.U223,OOIl)




' nil: 0,,,,,,11)1", 4.J8tt1 Supply ('lmill M~llligell'll.:l1t Wing.. ...hl'l,ld dir~1lhe Comm:lIIder, 7481 h
SUI'I' I~ CIII.;" M;u"'9...."'"' O'VUI', ,,, ""L~", e \l.u1 110... ·'t~.cl..ullkl bu}'0.1.,,,,," ..., ...0.1 i" 1he ~I"" ...,
quo l:'aJ.:ul:lllOll is M I grc:tli.'r Ihltlllhi.' sp..ocifi" I:'Of11mcl f\.'t/ulr:rncnt.



~ 1 :lIIl1:;t'llU'lIl C tHlI lII l.'nlS: 111l~ Ulrcclllf. 44lSlh :)UIJVly (~hlli.l !\ lallllgl:lI)cnl Wins. and the 748111
Supply CIt:I!n ~lftnt\g...lllcm Cimup ComllHIIldi:-r colI(.'ur IVilh 'Iudil rL'Ct)mm(.'Ildmion, Afl...r
COII'OI"I 3\l:lnJ, lhc net\ ~tl'ltlli '1110 cusL~ Wi lli)!! n:·... "ll'lIh,h::~ 10 maleh Ihl.' " b.,.:kordcr
b!lIudQ\\ 0" '''''lll ircmeIl1.'l in the conlr:\C1



FJilillll'lt:d ( 'OIllIIlt'iio l1l)a lc: .1 1 Ike    J(),




                                                                                41 

Repton tlf Audll , A It:lly~ls of AI" Jo'u"'t' s....',,"dllI"Y l'VI""1" I "J~SII "' l!iol ulhill ( ·olllm('l. NHth
SUIII.I" Lind.. ~1 :Ulagl'.nu'Cl l (:r""r, 11111 ,\ I' II UT (1)21MI9.I)lKIIK 'II.U223,OOIl)




' nlt~Dj ....,1",.., 44tcth SUllpl) ('h:till M a.llagl!m~'111 Wing. ~huol d tlired the COlllll1!UltiU. 748111
SUl't}I, Chiti.-, Ml" "'&''''''''' 0''101', 10 "loI";,, II u..1",,,,i,,uli,,,, li ...111 the Ai, I' ......." s..,,,i...,
l'ro.:U1\'01':1I1 Es.:culiw on \\ h~'\h~-" bundling is ne«'U.11) alldjuslilied for Ihe S~~lHi:try I'ow~'f
i.ugisliO! Solulion ~'{)ntntcl.



~1!ln~J!"II1I"1l1 COlllnlt'nls: TIl': l)ire.:lor. "4 !!th Suppl~' Chllir ~ l llnag':lIlC'n l Wing. lind II,t' 7'181:h
SIIppl) e lmin ~1:\IIag.:m elll Group CumnHmd.'r concur II itll Iludil r~'I,:Oll1 mendfllioll thai prup;:r
dtlenlli'lO'll\)ll for hundling mUSI ~ obl:ained.

NOfl-OOIlcur 11',lh Ic \'el 01 dclCnlllnftltOTl rtl'(lnlmCl\tlcd, ' ''AK 7. 107(1) stIles Ih:11 II IS till:
COlllmeting Offic:C'r'" responsihility 10 jIL~lil\ htl ndl ing. "1oe COIlIr.u.'1 ing OfIict'l" nl:ldC' a
bundling d"l'.'n ninmiOll f<)t Ihi$ COO\fl\C1 18 April 06. In IICI;IXdM~'I: with AFFARS 5307. 170-3, :I
d~lcnlljnlllion frolll the Senior 1 '~II~"~ nl [xOI:llli" e (or dd:glllt) i~ rcquil\!d for eonsolid.1lion
ofn:ljuilCmCnls willi II lol;d ""Ilk" ~w,;c~"din~ S5.500,OOO, t\ 4clo.: nlliolltion for COfIsolidalion was
5ign~-d by_ _ _ _ Deput y Auislal1l SCl;lCt"ry (Conlmcling). on ~ lay IS,
2006 thai ~ was 1M:CC'S$:tly :md jmlilied.

We n:.:ognizc th erc may be conn iel b\::\lI'ccn Ihc AJo':AR lIndoth~'f guid:tllec; OO\\C\'cr, 748
SC~ I G                                                                 or
       f<)llowcd proper prucedun: ul limo: ofjllslifiClllion (QllsolidaliOIl.

Wil li rcg;trds Iu bundliuj!.. w.:o h ~\o: _n u,nguiuM, illt~"'Io,1 n:do: w 10 dl,llcml inc II hcther :tp()l"opri91C
d.:t o:mlinal ioll and appro\'31s II''''rc m3di:.



EslllIIllll'CI fOmpltl io ll dnl t : 30 Jun 10.




                                                                           42 

Defense Supply Center, Richmond, Virginia Comments 





                                    DEFENSe: LOG I STICS AGENCV
                                             H EA DQUARTERS 

                                    8725 JOHN J . KINGMAN FlOAD 

                              FORT BELVO I R, VIRGI NI A          2:<1060-622 1 





      MEMURANDUM f.'OR DA

      SUBJEct: Analysis of Air Forte SecClrIdafY I'ower l .ogistic.~Sollllinn Cont ract Responsc

             I MVC reviewed OSCR's tlrofl response 10 subj~,(:l lllJd~   Ilwt   c:ollcur with their comments.

             11' )'OU~ lons. pleageCOUll)C1my !>OCt• • • • • • • • • •
      C(lmmcn:illl _ _




                                                  ~I.L
                                                  ~1~~1~~ireclor,                  Opcntlions &   ~uslllinllleni




                                                                   43 

                             DEFENSE LOGISTICS AGENCY
                           DEFEN$E: $Uf"!"LY Cr.:.tfTUt RICHMOND
                            aoooJ~IIt5CIN DAVIS HIGHWAY
                             RICHMOND. VIRGINIA 232:97..8 I DO


                                                                                  fEB 1 t 2010




SUIlIIiCT: AAt./yriJ 0( A# r~ ~ I'qwct l.o&IlIiCl SoIuWa COIuf(I (I'rtIjoct No.
           tr.IOI/'J.l}(lI;,AA."1 1.022:1.000)



..... _     ";!h It«ommtlldalioel A.l. DI ...1rjea draft l8IIytis.            doa:r_ .....
         AI ~ In DcOkl ~4IIC'd J8IU')' IS, 2OIO, IIIIJjKIIlIdIoYc, I Jw." rt¥1ewcd
                                                               n...   foIlmrial JIetion. hi...
bttD IIkCIo .... plIIIIICollO be ttUaltl --..Iiob ..hoi lilt DaOIO Is r~

        DSCR _ willi Lbo Ai( FORe IAF) in miIll)occmbcr Mol hrnlW)' peNinQl II> s.c-Lw)' r ­
~        SoIuIioo(SPt.Si_IaUIIS.

           SfII,SI'tIM. I. I_     1. F.IS a.....wm dOOme4. " " , - , I ;11I,...~lObe.-*'rI
.lui)' 10. 2010. Dt..,. 11 c.-' byM AF IaImIaI ,.. ••_ 1'Iop'.. ExcevrM~ • • ..,.-
Dt:!....... Collln.:t Mdit~...tiI. SPUl..,U.lKnPoII _ _ doI"~ t-I~lClYdirled ....... by
OX...
        SPLSI"IIaK 1.J..'1'<II>er>II . C.I)(I ..., .... ~ 1locdA........1I ......... _k_Ile••
icIt!IirlOd IIId ~OOI'" ,u.eslte - ......od. n. lo.,.e.ctr.wrIcIoo'Ir lI\III\eI w.redollv
..... io; $2S:>!: ~ ...... 2 )'Oar! hIove ~ M"..... """'lid • ..-d (AuprI tlXI'/ 11M . -year dnwdolto"
..... _ _ $'9M. AF. rm-iI!sdoe-'<d ......... AI' ;' _ . . . . [)6!uIo LocMb AI'*)' 

CDl.AJ ... .--.... r....;.,. .......,. ....... _ _ _ • 'RoIioI Yo.Ivc· r.a. ,........wly .......... ..ul:­
do..... ..,tbcy(~I)dolOOl ~"'dn .............. whoIoSI9M. Abo.~DI"""COIIC ... "lboiill
\tie Id 2 rc- ~U "'"' ...'lIrIIc4 _ 10 Ibrir lUppIicn ud 1ha 1'\oIIe)"".U 11M _ PfOC\I"III.

        01"" ...'0 I'ollow W _IfteIhodDIog.dcrplecl ill aaa- 2 II> uril;'" w,dllR Itt-..ol)' OI..A
win ..II . . A".trI~ l"'bItonrial_ if _11110(11\0' ' 19M "". ~ I.




                                                                             44 

